     This report is dedicated
to the workers who lost their lives
      on September 11, 2001.
United States Department of Labor
Office of Inspector General




Semiannual Report to the Congress
April 1, 2001–September 30, 2001
Volume 46
                                                                       Inspector General’s
                                                                            Message



It is an honor to transmit to the Secretary and the Congress the 46th Semiannual Report of the
U.S. Department of Labor (DOL) Office of Inspector General (OIG). During the period of April 1
through September 30, 2001, the OIG continued to direct its audit, evaluation, and investigation
resources to activities that support its goals of effecting positive change and reducing vulnerabilities
in departmental programs and operations, producing a positive return on invested resources, and
providing quality services to stakeholders. Our work is intended to assist the Department in its efforts
to improve the economic prospects of the unemployed and underemployed; protect the lives, health,
and rights of workers; provide appropriate benefits to injured or unemployed workers; and ensure
accountability over taxpayer dollars invested in departmental programs.

The work of the OIG during this period resulted in $40 million in costs that were questioned or
recommended be put to better use; over $35.2 million in investigative recoveries, restitutions, fines,
and penalties; 182 indictments; and 109 convictions. Through our oversight work, we provided
information to the Department that one of the major programs for providing employment and training
services to welfare recipients falls short in placing individuals in lasting unsubsidized employment.
We also audited programs that assist workers who lose their jobs because of trade policies to obtain
employment at suitable wages. We found that these programs only did so for 34% of the participants
we reviewed. In addition, we identified ways that the Department can further protect miners from
accidents and ways that the Department can protect its information technology systems from
intrusions.

From an investigative perspective, we found that worker benefits programs remain vulnerable to
fraud and continued our proactive support of the government’s efforts to combat labor racketeering,
union corruption, and organized crime activity. Illustrative of our work in this area is the conviction
of a former labor union official for his role in a multimillion-dollar fraud scheme involving several
Chicago-based union pension plans and a labor organization.

In addition to the work highlighted above, we are continuing to work with the Department to resolve
any previously identified management issues or areas of concern. My staff and I look forward to
continuing to work constructively with the Secretary and the DOL team to further our common goal
of ensuring the effectiveness, efficiency, and integrity of the programs that serve and protect the
American workforce.




Gordon S. Heddell
Inspector General
                                                                                                  Table of Contents


Selected Statistics ................................................................................................................... 2

Significant Concerns ............................................................................................................... 3

Employment and Training

     Welfare-to-Work Program ..................................................................................................         13
     Workforce Investment Act ..................................................................................................        17
     Trade Programs .................................................................................................................   18
     America’s Career Kit ..........................................................................................................    20
     Job Corps Program ............................................................................................................     21
     Foreign Labor Certification Programs ................................................................................              22

Worker Benefits Programs

     Unemployment Insurance Program ...................................................................................                 27
     Office of Workers’ Compensation Programs ......................................................................                    30
        Medical Provider Fraud .................................................................................................        30
        Claimant Fraud .............................................................................................................    32

Worker Safety, Health, and Workplace Rights

     Occupational Safety and Health Administration ................................................................. 37
     Mine Safety and Health Administration .............................................................................. 39
     Davis-Bacon Act ................................................................................................................ 40

Departmental Management

     Information Technology ..................................................................................................... 43
     Audit Resolution ................................................................................................................. 45

Labor Racketeering

     Benefit Plan Investigations .................................................................................................      49
     Internal Union Investigations ..............................................................................................       53
     Labor-Management Investigations .....................................................................................              55
     Worker Exploitation ............................................................................................................   56

Legislative Recommendations ............................................................................................. 57

Appendix ................................................................................................................................ 63




Semiannual Report to the Congress                                                                                                         1
April 1, 2001–September 30, 2001
                             Selected Statistics of the OIG
                                       for the Period
                            April 1, 2001–September 30, 2001

Total Questioned Costs .............................................................. $39.5 million
Investigative Recoveries, Cost Efficiencies, Restitutions, Fines/
    Penalties, Forfeitures, and Civil Monetary Action .................. $35.2 million
Dollars Resolved .......................................................................... $9.4 million
    Allowed .................................................................................... $4.7 million
    Disallowed ............................................................................... $4.7 million
Recommendations That Funds Be Put to Better Use ....................... $503,930
Audit Reports Issued .................................................................................. 38
Evaluation Reports Issued ............................................................................ 3
Cases Opened ...........................................................................................243
Cases Closed ........................................................................................... 222
Cases Referred for Prosecution ............................................................... 185
Cases Referred for Administrative/Civil Action ........................................... 12
Indictments ............................................................................................... 182
Convictions ............................................................................................... 109
Debarments ................................................................................................ 28




  Note:      The OIG conducts criminal investigations of individuals that can lead to prosecutions
             (“convictions”) by criminal complaints, warrants, informations, indictments, or pretrial
             diversion agreements. Successful prosecutions may carry sentences such as fines,
             restitutions, forfeitures, or other monetary penalties. The OIG financial accomplishments,
             which include administrative and civil actions, are further detailed and defined in the
             appendix of this report.
   Improving
    Program
     Results




Significant
  Concerns
    Significant Concerns


                    The OIG works with the Department and Congress to provide information
                    and assistance in achieving efficient and effective management of DOL
                    programs. Our primary goals are to ensure that information provided
                    will be useful in their management or oversight of the Department and
                    to focus agency attention on mission-critical management problems and
                    focus action to resolve them. The OIG has identified the following areas
                    that we consider to be vulnerable to mismanagement, error, fraud, waste,
                    or abuse.


Effectiveness of the Employment and Training Programs
                    After three decades the Department continues to face challenges in
                    effectively administering a number of key employment and training
                    programs. Recent OIG audits of programs designed to provide services
                    to the hardest-to-serve populations, as well as audits of programs
                    designed to serve skilled individuals who lose their jobs as a result of
                    plant closings, demonstrate the Department's difficulty in this critical
                    area.

                    Welfare-to-Work Program: A recent audit disclosed that the Welfare-
                    to-Work (WtW) competitive grant program, which is designed to provide
                    services to the hardest-to-serve populations, falls short of keeping
                    individuals in lasting unsubsidized employment. For example, our work
                    disclosed that only 25% of our sample of 765 participants were
                    continuously employed for more than six months. We also found that the
                    numbers of competitive grant participants reported as placed in
                    unsubsidized full-time and part-time employment were overstated by
                    27% and 43%, respectively. This example illustrates the challenges
                    faced by the Employment and Training Administration (ETA) in obtaining
                    quality performance data from its state partners. It is imperative that the
                    Department move quickly to finalize WtW performance data collection
                    and reporting requirements to achieve consistency, comparability, and
                    accuracy of the data used to assess this $3 billion program's
                    effectiveness.

                    Dislocated Worker Program: The OIG remains concerned about the
                    extent to which the Department's Dislocated Worker program, funded at
                    nearly $1.6 billion, is providing retraining and support services to eligible
                    dislocated workers. An OIG audit report found that, in 35% of the cases
                    in our sample, program participants were ineligible or documentation
                    was insufficient to establish their eligibility. We also raised concerns that
                    the program's allocation process may not distribute funds to areas where
                    they are most needed and that the Department needs to develop and
                    provide further guidance in these areas.




4                                                               Semiannual Report to the Congress
                                                                 April 1, 2001–September 30, 2001
                                                                      Significant Concerns


                            Trade Programs: Another example involves the Department's Trade
                            programs, which are designed to assist individuals who have become
                            unemployed or whose earnings have been reduced as a result of
                            increased imports to return to suitable employment (i.e., work of an equal
                            to or higher than skill level than the former employment that pays at least
                            80% of the former wage). A recent audit of the Trade programs found
                            that only 34% of program participants found suitable employment and
                            that the programs' unified reporting system was incomplete and
                            contained inaccurate data.

                            These examples highlight our concerns about the efficient and effective
                            administration of the critical programs designed to assist unemployed or
                            underemployed American workers.


Financial Performance
                            One of the Administration's five government-wide goals is improved
                            financial performance. The Department has made great strides in
                            financial reporting and has received clean audit opinions on its financial
                            statements since FY 1997. However, DOL continues to face significant
                            challenges in producing timely financial information that can be used in
                            the day-to-day management of the Department. Therefore, the
                            Department needs to change its focus from financial statement
                            preparation to proactive management of its financial records. Financial
                            events and transactions need to be recorded when they occur rather
                            than at year-end. Key to this is vesting the necessary authority in the
                            chief financial officer to provide direct oversight of all financial
                            management operations of the various DOL agencies. Historically, the
                            chief financial officer has not had this authority.


Accountability: Budget and Performance Integration
                            A major goal of the Administration is the integration of budget and
                            performance to ensure that the government is results-oriented and
                            guided by performance rather than process. Key to this is the
                            Department's success in capitalizing on a number of statutory initiatives
                            designed to improve the quality of program and cost data that serve as
                            the basis for determining the results achieved by Federal programs and
                            operations. With the passage of the Government Performance and
                            Results Act (GPRA), Congress created a management process
                            whereby Federal agencies develop strategic plans, articulate program
                            goals, allocate Federal resources to meet desired performance levels,
                            and measure and report program results. The quality and accessibility of
                            such data, including data reported by entities below the Federal level,




Semiannual Report to the Congress                                                                    5
April 1, 2001–September 30, 2001
    Significant Concerns


                    are of critical importance to the Department's GPRA reporting. Similarly,
                    the Federal Accounting Standards Advisory Board's Statement of
                    Federal Financial Accounting Standard Number 4, which became
                    effective in FY 1998, is aimed at providing reliable and timely accounting
                    for the full cost of Federal programs and activities.

                    Quality of Program Data: The Department is limited in its ability to access
                    and control the quality of program results data used to determine the
                    attainment of its strategic plan goals. This includes difficulties associated
                    with ensuring the quality of the myriad data provided by states and other
                    sources below the Federal level, where 90% of the Department's budget
                    is actually spent. Recent OIG audits of the WtW, Dislocated Worker, and
                    Trade Act programs continue to disclose high error rates in performance
                    data reported to the Department by its state partners. The errors affect
                    performance measures, including participants' wages, training activities,
                    and successes in obtaining jobs, that serve as key indicators in
                    determining the outcomes and success of the program. ETA has
                    initiated a data validation project to create more precise programming
                    specifications and standards for use in validating data quality in Welfare-
                    to-Work, Workforce Investment Act (WIA), and other programs
                    administered by ETA.

                    Ensuring the reliability of data reported by states is also a problem for the
                    Veterans' Employment and Training Services (VETS), which operates
                    most of its programs through the State Workforce Agencies. The OIG
                    has been working closely with VETS to address this issue and also to
                    improve data capacity, the quality of the agency's performance
                    measures, and the timeliness of reporting.

                    Data Limitations: Two important tenets of GPRA are that agencies
                    must evaluate program effectiveness and validate performance data. In
                    the employment and training area, it is particularly important to know
                    whether programs have resulted in individuals becoming self-sufficient
                    by obtaining long-term unsubsidized employment at livable wages. Two
                    important tools that may be used to this end are Unemployment
                    Insurance and Social Security Administration wage records of individual
                    program participants. However, the Department is limited in its ability to
                    obtain such data for program evaluation and validation purposes. To
                    enhance its ability to conduct program evaluation and validation in this
                    and other equally important areas, the Department needs to have
                    statutory authority to easily obtain and utilize these types of records. This
                    legislative need is further discussed in the Legislative Recommendations
                    section of this report.

                    Managerial Cost Accounting: Once performance data are determined
                    to be reliable, managerial cost accounting, which matches cost
                    information with program results, is the next step in managing for results.




6                                                               Semiannual Report to the Congress
                                                                 April 1, 2001–September 30, 2001
                                                                       Significant Concerns


                            During FY 1999, the Department began implementing the managerial cost
                            accounting (MCA) standard through agency pilot programs. It was
                            planned that the low-level structures developed in the pilot studies would
                            ultimately be aggregated to result in an integrated agency-wide MCA
                            system. However, the Department recently abandoned this "bottom-up"
                            approach and is presently focusing on initiating a "top-down" alternative
                            approach to the implementation of managerial cost accounting. This new
                            effort will be defined by desegregating high-level agency activities into
                            their components. The OIG will review the revised departmental MCA
                            implementation plans and specific agency or program implementation
                            efforts and will continue our internal cost accounting efforts. It is vitally
                            important that DOL ensure that performance and cost information
                            generated are accurate, accessible and auditable in order for DOL's
                            GPRA reporting to be credible.


Security of Pension Assets
                            The security of pension assets is a priority of the Department and of the
                            OIG. This includes ensuring that weaknesses, vulnerabilities, and criminal
                            activity are identified and addressed. One area of concern involves private
                            pension plans, which serve as an attractive target for organized crime
                            elements, corrupt pension plan officials, and individuals who influence the
                            investment activity of pension assets. Labor racketeering investigations of
                            pension plan monies that are jointly administered by labor union
                            representatives and management representatives (Taft-Hartley plans)
                            have elevated the OIG's concern over the security of the assets in this
                            segment of the pension plan universe.

                            OIG pension plan investigations have uncovered multi-million dollar
                            fraud enterprises by financial and investment service providers. These
                            investigations continue to reveal abuses by sophisticated investment
                            advisors and pension plan administrators who have the opportunity and
                            ability to structure complex financial schemes to conceal their criminal
                            activity. The OIG is concerned about abuses by financial investment
                            service providers because of the potential for multi-million dollar losses,
                            since they typically provide investment or financial advice for more than
                            one plan.

                            Based on recent investigative results and the fact that service providers
                            typically control the investment of hundreds of millions of dollars of
                            pension funds, the OIG has identified this area of the pension arena as
                            especially vulnerable to organized crime activity and abuse.




Semiannual Report to the Congress                                                                      7
April 1, 2001–September 30, 2001
    Significant Concerns


Protection of Worker Benefits Funds
                    The Department administers several programs and statutes designed to
                    provide and protect the benefits of workers. Protection of such benefits
                    is critically important because they affect the lives of millions of workers
                    and retirees and involve billions of taxpayer dollars. The OIG has
                    identified serious vulnerabilities within three of the Department's major
                    worker benefits programs: the Unemployment Insurance (UI), Federal
                    Employees' Compensation, and Black Lung Benefits programs. Of
                    particular concern to the OIG is the UI program, which was recently cited
                    as one of the top 10 worst managed programs in government. As with
                    any multi-billion dollar benefits payment program, there are those who
                    benefit from the UI program illegally. Through oversight of this program,
                    we have identified a number of schemes used to defraud the program
                    including fraudulent employer schemes, internal embezzlement
                    schemes, fraudulent interstate claims, and the fraudulent collection of UI
                    benefits by illegal aliens and others through the use of counterfeit or
                    unissued Social Security numbers. Further, our investigations have
                    disclosed that the ability to file electronic and mail claims has presented
                    individuals with the opportunity to defraud multiple states from a single
                    location. The OIG is very concerned about the continued proliferation of
                    these types of schemes against the UI program, as they have resulted in
                    substantial losses to the UI Trust Fund.

                    We believe that there is a need for increased training of state employees
                    in fraud detection techniques, improved internal program controls, and
                    improved enforcement. In addition, systemic weaknesses pose problems
                    for the UI system, including loss of contributions due to the inability of
                    states to search for hidden wages paid by employers who misclassify
                    workers as independent contractors, employers who fail to report all
                    wages paid, or employers who misrepresent their claims experience.


Information Technology and Electronic Government Challenges
                    One of the Administration's goals is the expansion of electronic
                    government. This presents challenges for the Department in ensuring
                    the security of its information technology (IT) assets, the seamless
                    implementation of its new IT architecture, and the integrity of its benefits
                    program in an electronic government environment.

                    Security of IT Assets: DOL currently operates 67 mission-critical
                    information systems. The Department relies on these critical information
                    systems to monitor and analyze the nation's labor market and economic
                    activities, manage workforce services, and protect and compensate
                    American workers. Recent OIG audits revealed specific vulnerabilities in
                    computer security and protection of assets. Further, the Department is
                    implementing new IT architecture and is modernizing its IT systems.
                    Although the Department has been proactive in moving to correct



8                                                              Semiannual Report to the Congress
                                                                April 1, 2001–September 30, 2001
                                                                      Significant Concerns


                            weaknesses as they are identified, the Department needs to be more
                            vigilant and to secure its major systems against threats and loss of
                            assets. This requires a chief information officer (CIO) with sufficient
                            authority and organizational independence from other agencies within
                            the Department. Currently, the CIO is also responsible for numerous
                            administrative functions of the Department that may either divert
                            attention from or conflict with the IT responsibilities.

                            Program Integrity in an Electronic Environment: The Department of
                            Labor and its program partners, like many organizations, are moving
                            from a paper environment to an electronic one for the delivery of
                            services, benefits, and program administration. The use of automated
                            procedures and Internet communications has the potential to broaden
                            the range of services, increase hours of operation, and reduce
                            administrative costs. However, this move also brings a new and
                            increased risk of misuse, fraud, and monetary loss. This has been
                            evidenced in recent OIG casework in worker benefits programs.
                            Therefore, to ensure program integrity, the Department must assess the
                            risks involved and utilize a comprehensive, integrated approach of
                            oversight and enforcement.

                            The OIG is also adapting its audit plan to assist the Department in
                            addressing the challenges it faces in this new environment. For
                            example, State Workforce Agencies are currently upgrading and
                            modernizing their operations to offer customers telephone and Internet
                            access to selected services. These services include UI claims filing,
                            employer registration, employer wage and tax reporting, and appeals
                            filing. The OIG will conduct audits in four to seven states in FY 2002 to
                            determine the effectiveness of system security.


Rapid Expansion of the Bureau of International
Labor Affairs Program
                            The Bureau of International Labor Affairs (ILAB) assists in formulating
                            international economic, trade, and immigration policies affecting
                            American workers. ILAB is also responsible for spotlighting significant
                            international child labor issues and contributing to the development and
                            implementation of U.S. policy on international child labor. The increasing
                            concern over child labor issues resulted, in part, in an almost sevenfold
                            increase in ILAB's appropriations during the last two fiscal years.
                            However, the OIG's evaluation and audit work raised concerns over
                            ILAB's management structure, managerial controls over grant
                            programs, program results, evaluation methods, and the roles and
                            responsibilities of individual staff to account for this increased level of
                            funding adequately. Now that ILAB has had a year to operate an
                            expanded program, we intend to look at how effective the agency has
                            been in addressing our previous concerns.



Semiannual Report to the Congress                                                                    9
April 1, 2001–September 30, 2001
      Enhancing
     Opportunities
     for America’s
       Workforce




Employment
and Training
The Department of Labor provides assistance to those new to the labor force and
those wishing to improve their potential to achieve success in today’s job market.
The Department provides opportunities for individuals to obtain the skills necessary
to succeed in the global economy, close the employment gap for out-of-school youth,
and increase long-term jobs for people as they move from welfare to work.


The OIG works to optimize the use of funds appropriated for training and employment
programs by enhancing program performance and accountability. This includes
providing oversight to ensure the overall efficiency and effectiveness of DOL’s
progress in moving welfare recipients away from public assistance and into training,
jobs, and self-sufficiency.
                                                                            Employment
                               Welfare-to-Work Program                      and Training


                            The purpose of the Welfare-to-Work (WtW) program is to prepare hard-
                            to-employ long-term welfare recipients and other eligible individuals for,
                            and place them into, lasting unsubsidized employment. WtW activities
                            should be grounded in the "work-first" philosophy of the Temporary
                            Assistance for Needy Families program established under the Personal
                            Responsibility and Work Opportunity Reconciliation Act of 1996, the
                            legislative centerpiece of welfare reform. In FYs 1998 and 1999, $3 billion
                            was authorized for WtW grants and approximately $700 million of this
                            amount was awarded to grantees selected through a competitive grant
                            process carried out in three separate rounds, with the remainder
                            distributed by formula to the states. The competitive grants were intended
                            to develop innovative approaches to serve the targeted population.


    Welfare-to-Work Competitive
    Grant Program Falls Short of
    Meeting Program Objectives

                            The OIG performed an audit to assess the effectiveness of the WtW
                            competitive grant program. Our audit scope included performance data
                            reported by 19 randomly selected first- and second-round competitive
                            grantees as of September 30, 2000. In addition, we analyzed
                            employment and earnings outcomes obtained for a random sample of
                            765 participants served by the 19 grantees we audited. Among our
                            findings were the following:
                                •   The program falls short of keeping individuals in lasting
                                    unsubsidized employment.
                                    For example, only 25% of our sample of 765 participants were
                                    continuously employed for more than six months. At the time of
                                    our audit, the grantees did not know the current employment
                                    status of 25% of the employed participants in our sample.
                                •   Program data were not reliable. We found significant errors in
                                    data that contributed to ETA's computed WtW performance
                                    measures.
                                    Specifically, from our sample, we projected that the numbers of
                                    competitive grant participants reported as placed in unsubsidized
                                    full-time and part-time employment were overstated by 27% and
                                    43%, respectively. We also projected that the number of
                                    participants reported as retained six months in unsubsidized
                                    employment was overstated by 86%. We further found that 13 of
                                    the 17 sample grantees that reported earnings gains to ETA used
                                    improper and unsupportable methodologies to compute the



Semiannual Report to the Congress                                                                   13
April 1, 2001–September 30, 2001
       Employment
       and Training                  Welfare-to-Work Program


                             measure and that 11 grantees reported earnings gains on a
                             cumulative rather than quarter-by-quarter basis, contrary to
                             reporting instructions.
                         •   Grantees in our sample did not report consistent and accurate
                             performance data.
                         •   While ETA had made numerous efforts to train grantees
                             concerning the reporting requirements, ETA's monitoring visits
                             did not include attempts to verify the accuracy and completeness
                             of reported performance data.
                         •   WtW evaluation studies (current and planned) will not provide
                             ETA with the information necessary to determine which
                             innovative approaches or interventions worked and which did
                             not. The evaluations measure only specific grantee operations,
                             which may not necessarily reflect the WtW competitive grant
                             program as a whole.
                      To improve services to those participants served by WtW grantees and
                      provide a solid foundation for evaluating the WtW competitive grant
                      program, we recommend that ETA:
                         •   require grantees to follow up with participants in unsubsidized
                             employment to determine whether additional services are
                             needed to ensure employment retention;
                         •   conduct data validation reviews at the grantee level to ensure
                             that the performance data being reported are accurate and
                             complete; and
                         •   work with the U.S. Department of Health and Human Services to
                             reexamine the current approach being used to evaluate the WtW
                             competitive grant program. We recommend that a national
                             evaluation be designed to assess the innovative approaches
                             being used to move welfare recipients from welfare dependency
                             to economic self-sufficiency.
                      In the response to our report, ETA agreed with and stated that it will
                      implement each of the reported recommendations. (OA Report No. 03-
                      01-007-03-386, issued September 28, 2001)

     Common Problems Found
     in WtW Grants

                      In addition to the national-level audit of competitive grant performance
                      data, the OIG performed audits of discrete WtW grants. The OIG has
                      issued two reports on the results of postaward surveys of 47
                      competitive WtW grantees (OA Report Nos. 05-99-008-03-386, issued
                      March 24, 1999, and 05-99-020-03-386, issued September 20, 1999).




14                                                             Semiannual Report to the Congress
                                                                April 1, 2001–September 30, 2001
                                                                           Employment
                               Welfare-to-Work Program                     and Training


                            While we determined that the competitive grantees overall possessed
                            adequate delivery capability, we found financial and program
                            vulnerabilities. Financial vulnerabilities included weaknesses in internal
                            controls over cost limitations, management information systems, cash
                            management, and financial and programmatic reporting. These
                            vulnerabilities, if not corrected, could result in millions of dollars of
                            wasteful spending. Program vulnerabilities included inadequate
                            agreements with Temporary Assistance for Needy Families agencies
                            and subrecipients, insufficient eligibility procedures, lack of written
                            policies and procedures, and noncompliance with minimum wage
                            requirements and the WtW's "work-first" focus. These vulnerabilities, if
                            not corrected, could impair the ability of grantees to move hard-to-
                            employ welfare recipients into unsubsidized jobs and economic self-
                            sufficiency.

                            We followed up the surveys with financial and compliance audits of three
                            WtW grantees (DePaul University [Illinois]; Indianapolis Private Industry
                            Council [Indiana]; and Chicago Housing Authority [Illinois]) to determine
                            participant eligibility and the allowability of costs claimed. Each report
                            contained questioned costs because of ineligible participants and
                            inadequate support for grant expenditures, and collectively we
                            questioned $247,110. Other findings included the following:
                                •   Participants were misclassified in the database, which
                                    inaccurately skewed subcategories of expenditures and
                                    participants (but not the totals).
                                •   The two Illinois grantees needed to obtain sufficient eligibility
                                    evidence from the Illinois Department of Human Services for
                                    their WtW participants.
                                •   Two grantees lacked a system to classify expenditures as
                                    required by the WtW legislation, and the third grantee did not
                                    follow its cost allocation plan to allocate expenditures to the
                                    required classifications.
                                •   Two grantees did not report consistent and accurate financial
                                    and performance data on the financial status reports they
                                    submitted to ETA.
                            Grantee officials generally concurred with our findings and identified
                            actions they have taken or plan to implement to address our
                            recommendations. (OA Report Nos. 05-01-003-03-386, issued
                            July 27, 2001; 05-01-004-03-386, issued September 24, 2001; and 05-
                            01-005-03-386, issued September 25, 2001)




Semiannual Report to the Congress                                                                  15
April 1, 2001–September 30, 2001
        Employment
        and Training                  Welfare-to-Work Program


     $3.3 Million Welfare-to-Work
     Contract Terminated by DOL

                       Based on the results of an OIG investigation, ETA terminated a
                       $3.3 million contract with Mississippi Action for Community Education
                       (MACE) on May 31, 2001. On April 26, 2001, MACE's president and
                       CEO was indicted on 14 charges of false statements and theft
                       concerning programs receiving Federal funds. ETA awarded MACE a
                       $3.3 million WtW grant in September 1999 to train and employ
                       participants in the construction of pre-engineered homes. The
                       investigation revealed that program participants were utilized to
                       construct a fence at the president's personal residence using funds
                       drawn from a DOL account. ETA subsequently examined MACE's
                       records and found significant programmatic and financial problems. This
                       is a joint investigation with the Corporation for National and Community
                       Services.

     Former Finance Director for
     Nonprofit Corporation Charged
     in Connecticut

                       On September 5, 2001, the former finance director of a nonprofit
                       corporation that provides services to low-income families and another
                       individual who owned several printing companies were indicted on state
                       charges of larceny and conspiracy for misusing WtW grant funds. The
                       nonprofit was awarded a WtW grant of nearly $3 million in January 1999
                       to provide services to 1,200 welfare recipients through January 2002.
                       The investigation revealed that between 1996 and 2001, the nonprofit
                       corporation fraudulently paid over $1 million (of which over $47,000 was
                       WtW grant monies) for nonexistent supplies and services through
                       invoices approved by the finance director. In turn, the printing company
                       owner kicked back at least $235,000 to the director. This is a joint effort
                       with the Department of Housing and Urban Development OIG and the
                       Connecticut State’s Attorney's Office.




16                                                                Semiannual Report to the Congress
                                                                   April 1, 2001–September 30, 2001
                                                                            Employment
                              Workforce Investment Act                      and Training


                            The Workforce Investment Act (WIA) became effective on July 1, 2000.
                            The system WIA established is intended to be customer-focused, in order
                            to give American workers access to information and tools they need to
                            manage their careers, and to help U.S. companies find skilled workers.

    Questioned Costs and Weak Internal
    Control Identified in Role Models America

                            Under a special provision in WIA, ETA awarded a 2-year, $10 million
                            WIA grant to Role Models America, Inc. (RMA), to provide education,
                            training, and other services in a residential setting to out-of-school youth
                            facing serious barriers to employment. The RMA curriculum, which is
                            intended to serve out-of-school youth from all over the nation, includes
                            vocational training and secondary school course work leading to a high
                            school diploma and possibly to higher education. Mentors, academic
                            tutors, and counselors serve as role models for the students.

                            The OIG performed a financial and compliance audit of the costs claimed
                            by RMA from June 2000 (grant commencement) through March 2001.
                            For the audit period, RMA reported $6.65 million in grant costs to ETA.
                            Based on our audit, we were able to accept only $4.33 million of this
                            amount. RMA was unable to support $2.05 million in purported cost
                            accruals that were not recorded in its books. We questioned $262,000 in
                            costs that were not allowable under the grant.

                            We determined that serious internal control problems existed with RMA's
                            accounting system and that it maintained excessive cash balances. The
                            most significant issue noted was $2.05 million in claimed costs that were
                            not supported by RMA's general ledger. On further inquiry, RMA was
                            unable to provide any documentation to support these claimed costs. We
                            questioned $262,000 because the charges were personal expenses of
                            RMA's president and CEO, were for services that did not benefit the grant,
                            or were not properly supported. Types of questioned costs included
                            mortgage payments, salary expenses, repayment of loans, rental
                            payments, furniture, and others. Further, we determined that while RMA
                            had an average of approximately $23,000 to $85,000 in cash expenditures
                            every three days, the grantee maintained an excessive daily Federal cash
                            balance that ranged from $400,000 to more than $1.5 million.

                            RMA did not agree with the majority of the OIG findings and claimed that
                            it had been authorized to treat the costs in the manner it did. We
                            recommended that ETA recover the improper expenditures to the grant,
                            seek documentation from RMA to support the unsupported questioned
                            costs, and take steps to ensure the adequacy of RMA's accounting
                            system. (OA Report No. 21-01-200-03-390, issued September 27, 2001)




Semiannual Report to the Congress                                                                    17
April 1, 2001–September 30, 2001
       Employment
       and Training                  Trade Programs


                      For nearly 40 years, Federal programs to assist workers affected by
                      foreign trade policies have been a key component of Federal domestic
                      initiatives. The 1974 Trade Adjustment Assistance (TAA) program was
                      designed to assist individuals who become unemployed or whose
                      earnings are reduced as a result of increased imports. The program's
                      goal is to return them to suitable employment (work of an equal to or
                      higher than skill level than the former employment that pays at least
                      80% of the former wage). The purpose of a companion program, the
                      1993 North American Free Trade Agreement–Transitional Adjustment
                      Assistance (NAFTA-TAA) program, is to help those who have lost their
                      employment or whose earnings have been reduced as a result of trade
                      with Canada or Mexico. TAA and NAFTA-TAA are collectively called the
                      Trade programs. These programs offer eligible participants identical trade
                      readjustment allowances, training, and job search and relocation
                      allowances. States were provided $369 million in FY 1999 for training,
                      job search, relocation, and monetary allowances.


     Trade Programs Produce
     Mixed Results and Reported
     Data Are Not Reliable

                      The OIG audited the Trade programs FY 1999 performance by
                      examining the results of the programs for over 700 participants in 16
                      states. Generally, program participants' training needs were adequately
                      assessed, as 91% received some training and 72% found jobs when
                      they left the program. Also, those participants who received training
                      fared somewhat better than those who did not. However, the programs
                      were less effective in helping participants recover their wages. For
                      example, we found that:
                         •   only 34% of program participants found suitable employment
                             (work of an equal to or higher than skill level than the former
                             employment that pays at least 80% of the former wage); and
                         •   only 22% of the program participants obtained program-assisted
                             suitable employment (i.e., found suitable employment and either
                             credited the Trade programs with helping them find their jobs or
                             were determined by the OIG to be employed in training-related
                             occupations).
                      While many factors contributed to the low suitable employment
                      placement rate, some of which were out of the control of the service
                      providers, the OIG believes that greater emphasis by the service




18                                                              Semiannual Report to the Congress
                                                                 April 1, 2001–September 30, 2001
                                                                            Employment
                                         Trade Programs                     and Training


                            providers on employment outcomes, post-program follow-up, and
                            program evaluation could have produced better results.

                            The OIG also audited the Trade programs' unified reporting system and
                            found that it was incomplete and contained inaccurate data. The
                            recording of information in the reporting system often bore little
                            relationship to what had occurred in the programs, was generally viewed
                            as a troublesome imposition, and was often ignored. It is particularly
                            noteworthy that the central program weakness found through this audit,
                            the lack of useful information on the program's effectiveness, had been
                            identified as a major problem in a 1993 OIG audit report of the TAA
                            program. (OA Report No. 05-93-008-03-330)

                            We recommended that ETA increase its monitoring of the accuracy of
                            reported participant data and ensure that state program goals are
                            translated to the local level and that states have clear, uniform program
                            termination procedures as their trade adjustment activities are an
                            integral part of their program evaluation and monitoring systems.

                            In response, ETA stated that it will continue to work with states to ensure
                            that local administrators are aware of program expectations. It also
                            stated that improvements in program evaluation and monitoring will be
                            implemented in FY 2002 through the use of a new program review guide.
                            ETA also believes that refinements to its recently implemented
                            participant reporting system, which it plans to operate in-house, should
                            address the concerns with the accuracy and completeness of data. ETA
                            disagreed with our application of suitable employment as a measure of
                            the programs' success. Although ETA adopted a wage replacement
                            performance goal for the Trade programs in FY 2000 and has applied
                            one each year since, it argued that the concept of suitable employment
                            was intended as only one of several criteria to be used in decisions
                            concerning an individual participant's training and income support
                            benefits. ETA believes that its wage-replacement goal, which is
                            calculated on the average of all program participants' wages, is a more
                            appropriate measure of program performance. (OA Report No. 04-01-
                            009-03-330, issued September 26, 2001)




Semiannual Report to the Congress                                                                   19
April 1, 2001–September 30, 2001
        Employment
        and Training                  America's Career Kit


                       America's Career Kit (ACK) is an Internet-based comprehensive resource
                       for Americans needing job search assistance, career guidance, salary
                       data, and training and educational resources. Since 1997, ACK has
                       received total DOL funding of $116.5 million, including $42.5 million for
                       the current program year.


     America's Career Kit Needs to
     be Focused on Program
     Outcomes and the Needs of
     Stakeholders

                       The OIG evaluated ETA's development and implementation of ACK. Our
                       evaluation of ACK focused on issues related to America's Job Bank,
                       ACK's most widely used tool. We determined that the overall
                       effectiveness of the Job Bank is difficult to assess because the current
                       performance measure does not capture all aspects of Job Bank
                       performance. The Job Bank's only performance standard for PY 1999
                       was a 1% increase in the number of jobs posted on the web site. We
                       recommended that in order to fully assess the performance of the Job
                       Bank, ETA consider measuring usage (web site utilization) and utility (to
                       what degree the web site aids individuals in finding employment). The
                       current performance measures address program outputs rather than
                       program outcomes. ETA has conducted a study of employer
                       satisfaction, but job seeker customer service has received significantly
                       less attention. As job seekers are at the center of the purpose of the Job
                       Bank, we recommend that ETA devote significant effort to analyzing job
                       seeker satisfaction. Moreover, the current version of the Job Bank needs
                       to further address the compliance needs of three equal employment
                       opportunity agencies in the Department of Labor's Office of Federal
                       Contract Compliance Programs, the Civil Rights Center, and the
                       Veterans' Employment and Training Service. ETA generally agreed with
                       our recommendations. (OCIE Report No. 2E-03-390-0002, issued
                       September 27, 2001)




20                                                               Semiannual Report to the Congress
                                                                  April 1, 2001–September 30, 2001
                                                                             Employment
                                     Job Corps Program                       and Training


                            Job Corps was established in 1964 and is presently authorized under
                            Title I, Subtitle C of the Workforce Investment Act of 1998. The overall
                            purpose of the program is to provide economically disadvantaged youth
                            with the opportunity to become more responsible and employable citizens.
                            With annual funding of over $1 billion, Job Corps is the largest Federal
                            youth employment and training program and serves approximately 70,000
                            youths a year. Operations of the program are carried out at 118 residential
                            facilities that provide a comprehensive and intensive array of academic
                            training, vocational training, job placement, and support services to at-
                            risk youths and young adults.


    Former Job Corps Employee
    Receives Six Years in Prison
    for Theft

                            Kenneth Wilson, a former Joliet Job Corps Center employee, was
                            sentenced on September 4, 2001, to six years in prison following his
                            guilty plea to charges of unlawful use of a credit card. The investigation
                            revealed that Wilson took and used a government-issued credit card
                            when he left his position at the center. Also indicted during this period
                            were his wife and a friend on state charges of unlawful use of a credit
                            card (the friend was also indicted on charges of forgery). The
                            investigation revealed that Wilson, his wife, and the friend had allegedly
                            used the credit card to purchase pre-paid debit cards to buy food and
                            other items, totaling about $5,000. This investigation is a joint effort with
                            the Government Services Administration (GSA) OIG and the Naperville,
                            Illinois, Police Department. U.S. v. Wilson, et al. (State of Illinois)




Semiannual Report to the Congress                                                                     21
April 1, 2001–September 30, 2001
        Employment
        and Training                  Foreign Labor Certification Programs


                       The Department of Labor's foreign labor certification programs are
                       designed to provide employers access to foreign workers in specialty
                       occupations or in areas in which there is a shortage of American workers.
                       The program is supposed to ensure that the admission of aliens to work
                       in the United States on a permanent or temporary basis does not
                       adversely affect the job opportunities, wages, and working conditions of
                       American workers or legal resident aliens. The H-1B Visa Specialty
                       Workers program is intended to allow U.S. businesses to compete in a
                       global market in order to respond to rapid advances in technology. It
                       requires employers who intend to employ foreign specialty-occupation
                       workers temporarily to file labor condition applications with the
                       Department stating that appropriate wage rates will be paid and
                       workplace guidelines followed. Proper worker documentation must
                       accompany these applications before a visa is issued. Under current
                       law, the Department is required to certify applications unless it determines
                       the applications to be "incomplete or obviously inaccurate." OIG audits
                       and investigations have shown that the individuals allowed into the United
                       States under this program often lack the specialized skills necessary for
                       meeting the requirements for H-1B visas.


                       The OIG continues to identify fraud in the foreign labor certification
                       programs, with the majority of cases involving the H-1B temporary work
                       visa program. These cases involve fraudulent petitions that are filed with
                       DOL on behalf of fictitious companies and corporations, individuals who
                       file petitions using the names of legitimate companies and corporations
                       without their knowledge or permission, and immigration attorneys and
                       labor brokers who collect fees and file fraudulent applications on behalf
                       of aliens.


     California Landlord Sentenced
     to Eight Years and Ordered to
     Pay $2 Million in Restitution

                       Lakireddy Reddy, of Berkeley, California, was sentenced on
                       June 19, 2001, to eight years in prison, was ordered to register with the
                       State of California as a sex offender, and was required to pay $2 million
                       in restitution to seven young girls whom he victimized. Reddy pled guilty
                       in March 2001 to charges of conspiracy to bring aliens into the United




22                                                                Semiannual Report to the Congress
                                                                   April 1, 2001–September 30, 2001
                                                                            Employment
                 Foreign Labor Certification Programs                       and Training


                            States illegally, aiding and abetting, transportation of a minor in foreign
                            commerce for illegal sexual activity, and making a false statement on a
                            tax return. The investigation revealed that Reddy, other family members,
                            and other individuals had carried out a widespread conspiracy since
                            1986 to bring at least 25 Indian nationals, including young females for
                            Reddy's sexual services and cheap labor, into the United States through
                            fraudulent abuse of the H-1B visa program. This was a joint investigation
                            with the Immigration and Naturalization Service (INS), the FBI, the IRS
                            Criminal Investigations Division (CID), and the City of Berkeley Police
                            Department. U.S. v. Reddy, et al. (N.D. California)

    Visa Fraud Ringleader
    Sentenced to One Year in
    Prison and Ordered to Pay over
    $270,000 in Restitution

                            On April 20, 2001, Matahom "Pearl" Scully, a former immigration
                            consultant in San Francisco, California, was sentenced to a year in
                            prison and was ordered to pay over $270,000 in restitution. The
                            sentencing followed her guilty plea in connection with her involvement in
                            a visa fraud scheme with Los Angeles attorney Mae Galvez-Lanton, who
                            had previously been sentenced on June 19, 2001, to three years'
                            probation and ordered to pay a $9,000 fine. In addition, on April 10, 2001,
                            Scully's co-conspirator, Danny Reyes, controller of Golden State Health
                            Care, a California firm specializing in convalescent care, was sentenced
                            to two years' probation after cooperating with the investigation. Over a
                            three-year period, Scully and Reyes filed hundreds of fraudulent
                            petitions for Filipino aliens seeking admission to the United States
                            through the H-1B visa program. The H-1B program is intended to bring
                            in highly skilled foreign workers for jobs for which no Americans are
                            available. Instead, Scully and Reyes placed the foreign workers in low-
                            skilled, low-paying jobs, such as janitors, certified nursing assistants,
                            and maintenance staff. This was a joint investigation with the INS and the
                            Department of State. U.S. v. Scully, et al. (N.D. California)

    Texas Company CEO Pleads
    Guilty in Visa Fraud Scheme

                            On September 5, 2001, Heyn Naude, CEO of Brexicom, Inc., of Austin,
                            Texas, pled guilty to charges of conspiracy, visa fraud, and making
                            false statements. The investigation revealed that from July 2000 to
                            March 2001, Naude filed 42 H-1B visa petitions on behalf of South
                            African information technology professionals, claiming that Brexicom
                            would hire the visa applicants as systems analysts, earning $42,000




Semiannual Report to the Congress                                                                   23
April 1, 2001–September 30, 2001
       Employment
       and Training                   Foreign Labor Certification Programs


                      per year. The investigation disclosed that Naude falsified information on
                      the forms he submitted to DOL and the INS, because Brexicom had no
                      jobs available for applicants when they entered the country. Once the
                      applicants arrived in the United States, they were instructed by Naude to
                      find their own jobs through Internet web sites, yet he had charged each
                      applicant between $850 and $2,330 to process the H-1B visa
                      application. This investigation was conducted jointly with the INS. U.S. v.
                      Naude (W.D. Texas)

     Company Officials Sentenced
     for Hiring Illegal Aliens

                      On August 24, 2001, Construction Personnel, Inc. (CPI), a Tennessee-
                      based asbestos abatement company, company president Roy Weaver,
                      company vice president Ron Goodwin, and an employee, Tina Voiles,
                      were sentenced following their guilty pleas to charges of conspiracy,
                      immigration violations, wire fraud, and money laundering. Voiles
                      received a year's probation after pleading guilty to an immigration
                      violation. Goodwin was sentenced to a year in jail, and CPI and Weaver
                      each received three years' probation and fines. Collectively, the
                      company and its officials were ordered to pay over $328,000 in
                      restitution. The investigation showed that over a 2-year period, CPI hired
                      3,000 workers, 40% of whom were illegal immigrants. CPI provided the
                      illegal aliens with falsified identification and certifications of training to
                      enable them to work for construction contractors, and CPI was paid
                      nearly $4 million for the work of the aliens. This investigation was
                      conducted with the Tennessee and Colorado Environmental Crimes
                      Task Force, the INS, the Defense Criminal Investigative Service, EPA's
                      Criminal Investigative Division and OIG, the IRS, and the FBI.
                      U.S. v. Goodwin, et al. (E.D. Tennessee)




24                                                                 Semiannual Report to the Congress
                                                                    April 1, 2001–September 30, 2001
       Promoting the
         Economic
         Security of
        Workers and
          Families




Worker Benefits
     Programs
The Department of Labor is responsible for protecting workers’ hours, wages, and
other conditions when they are on the job, providing unemployment and compensation
benefits when workers are unable to work, and expanding, enhancing, and protecting
workers’ pensions, healthcare, and other benefits. The Department carries out programs
to ensure compliance with minimum-wage and overtime requirements; to enable
working Americans to be economically secure when they retire; to provide more
pensions for women and employees of small businesses; to provide better access to
healthcare; and to facilitate community readjustment in those areas suffering from
economic change by shortening periods of unemployment and increasing full-time
jobs and wage replacement.



Under this goal, the OIG assists the Department in effectively administering and
safeguarding Federal employee benefits programs (e.g., unemployment insurance
and disability compensation benefits programs) and in overseeing the nation’s pension
system. Moreover, through our investigative efforts, we protect the integrity of
programs by identifying and causing the termination of fraudulent claims and billings
by ineligible recipients and medical providers.
                                                                          Worker Benefits
                   Unemployment Insurance Program                           Programs


                            Enacted over 60 years ago as a Federal-state partnership, the
                            Unemployment Insurance (UI) program is the Department's largest income
                            maintenance program. This multibillion-dollar program assists individuals
                            who have lost their jobs through no fault of their own. While the framework
                            of the program is determined by Federal law, the benefits for individuals
                            are dependent on state law and are administered by State Workforce
                            Agencies (SWAs) in 53 jurisdictions covering the 50 states, the District of
                            Columbia, Puerto Rico, and the U.S. Virgin Islands under the oversight of
                            ETA. During this reporting period, we completed a number of audits and
                            investigations that called attention to systemic weaknesses and unallowable
                            costs claimed in the UI system. The OIG continues to expand its
                            investigative efforts to detect and investigate fictitious or fraudulent
                            employer schemes used to defraud the UI program. In recent years, the
                            program has suffered losses in the millions of dollars as a result of these
                            types of schemes. As a result, the integrity of the UI program was cited by
                            Congress as one of the ten worst management issues in government.
                            Highlighed below are some of our accomplishments in this area.


   OIG Recommends Recovery of
   $9.8 Million from Maryland
   Department of Labor, Licensing,
   and Regulation

                            In the prior semiannual period, the OIG recommended that DOL recover
                            over $1.3 million from the Maryland Department of Labor, Licensing, and
                            Regulation (DLLR) related to DLLR central service costs it charged to DOL
                            grants. The current audit of DLLR is related to indirect costs it charged to
                            DOL grants. The OIG conducted an audit of the Maryland DLLR to
                            determine whether the indirect costs charged to DOL grants administered
                            by DLLR for the period July 1995 through June 2000 were allocable and
                            allowable.

                            Our audit found that although OMB Circular No. A-87 expressly requires
                            that indirect costs be allocated to cost objectives on the basis of relative
                            benefits received, DLLR failed to comply with this requirement. We
                            determined that for the 5-year period ended June 30, 2000, DLLR billed
                            and received a total of $50,523,999 in indirect costs from DOL while,
                            for this period, its actual allowable indirect costs properly allocable to
                            DOL grant awards on the basis of relative benefits received totaled
                            only $40,690,940. In short, DLLR overcharged DOL grant awards a
                            total of $9,833,059 in indirect costs during this 5-year period ended
                            June 30, 2000.



Semiannual Report to the Congress                                                                    27
April 1, 2001–September 30, 2001
      Worker Benefits
        Programs                     Unemployment Insurance Program


                      We recommended that DOL recover the $9.8 million in questioned indirect
                      costs and direct DLLR to develop and implement internal control policies
                      and procedures to ensure that its indirect cost rate proposals fully comply
                      with the Federal cost principles mandated by OMB Circular No. A-87. The
                      Maryland DLLR disagreed with the OIG findings and recommendations.
                      (OA Report No. 03-01-006-03-315, issued September 21, 2001)

     OIG Questions Expenditure
     of $2.3 Million of Grant Funds

                      During FYs 1998 and 1999, ETA awarded grants totaling $255 million to
                      SWAs specifically to make their automated Employment Service and
                      Unemployment Insurance (UI) systems Y2K compliant. As part of a
                      series of audits conducted in this area, the OIG reviewed SWA grant
                      expenditures in four states to ensure that Y2K grant funds were spent
                      for intended purposes, in conformity with the grant agreements and
                      applicable Federal requirements. Our audit disclosed that the four SWAs
                      did not always comply with requirements governing use of the grant funds
                      and, as a result, we questioned $2,313,251 during this reporting period.

                      The following chart shows the amounts questioned during this reporting
                      period:

                                              Funds Awarded               Amounts Questioned
                      California                $11,266,110                       $ 848,963
                      Montana                      6,309,069                         132,743
                      Ohio                       13,329,257                        1,085,283
                      Pennsylvania               11,786,862                          246,262
                      Total                     $42,691,298                       $2,313,251

                      Significant questioned costs and related issues include:
                          •   $1,006,520 of base-funded salaries and related allocations that
                              were improperly charged to the grants;
                          •   $758,442 in system enhancements that were not related to the
                              grants;
                          •   $366,761 in maintenance agreements and routine supplies that
                              were not related to the grants; and
                          •   $73,736 in costs incurred prior to the start of the grants.
                      In addition to recommending that ETA recover the questioned costs, we
                      also recommended that the Pennsylvania SWA return $459,198 in grant
                      funds remaining after the termination of its grant. The four SWAs
                      disagreed with our audit findings, stating that their interpretation of ETA's
                      guidance permitted a greater degree of funding flexibility in the use of the
                      grant monies. (OA Report Nos. 04-01-005-03-315, issued August 22,
                      2001; 04-01-010-03-315, issued September 17, 2001; 04-01-006-03-
                      315, issued September 21, 2001; and 04-01-008-03-315, issued
                      September 21, 2001)

28                                                                Semiannual Report to the Congress
                                                                   April 1, 2001–September 30, 2001
                                                                           Worker Benefits
                   Unemployment Insurance Program                            Programs

   Woman Pleads Guilty in
   Multi-State Fraud Scheme

                            Theresa Freeman pled guilty on July 17, 2001, to mail fraud charges in
                            connection with a multi-state fictitious employer scheme that she had
                            operated since 1994. She conducted her scheme in South Carolina,
                            Florida, Hawaii, Connecticut, and New York. The OIG investigation found
                            that she had devised the scheme to obtain UI monies by establishing
                            employer accounts for two false and fictitious businesses with the South
                            Carolina Employment Security Commission (SCESC). She then applied
                            for UI benefits in the names of fictitious employees and opened bank
                            accounts using a fictitious name to deposit proceeds from SCESC
                            unemployment compensation checks paid out to the fictitious employees.
                            Freeman fraudulently obtained approximately $68,600 in UI benefits.
                            U.S. v. Freeman (D. South Carolina)

   Arkansas Man Pleads Guilty in
   Fictitious Employer Scheme

                            On June 22, 2001, Randy Vanhorn, of Jonesboro, Arkansas, was
                            sentenced to nearly six years in prison and three years' probation and was
                            ordered to pay $44,000 in restitution after having been found guilty on
                            charges of mail fraud and money laundering in November 2000. He was
                            also sentenced to an additional 10 months in prison, to run consecutively,
                            for violating probation and was ordered to pay more than $9,000 in
                            restitution relating to a previous conviction. The OIG investigation
                            disclosed that from May 1999 to February 2000, Vanhorn conducted a
                            fictitious employer scheme in and around the Jonesboro, Arkansas area
                            by using aliases to create two fictitious companies to file fraudulent reports
                            and create records for 14 fictitious employees. This was a joint
                            investigation with the U.S. Postal Inspection Service and the Social
                            Security Administration (SSA) OIG. U.S. v. Vanhorn (E.D. Arkansas)

   Chicago Woman and Son Indicted
   for $350,000 in UI Fraud

                            On May 31, 2001, a Chicago-area woman and her son were indicted on
                            multiple counts of mail fraud for allegedly devising a scheme to defraud the
                            Illinois Department of Employment Security (IDES) from January 1993
                            until September 1999. Using various names, they created five fictitious
                            companies and posed as claimants to obtain UI benefits from IDES. As a
                            result of this scheme, IDES issued hundreds of unemployment checks
                            totaling nearly $350,000 to more than 35 fictitious claimants. This
                            investigation is a joint effort with IDES and the U.S. Postal Inspection
                            Service.



Semiannual Report to the Congress                                                                      29
April 1, 2001–September 30, 2001
      Worker Benefits
        Programs                    Office of Workers' Compensation Programs


                     The OIG continues to investigate claimants and medical service providers
                     who defraud the healthcare programs administered by DOL's Office of
                     Workers' Compensation Programs (OWCP). OWCP administers four
                     major disability compensation programs: the Energy Employees’
                     Occupational Illness Compensation program, the Federal Employees’
                     Compensation program, the Black Lung Benefits program, and the
                     Longshore and Harbor Workers' Compensation program. These
                     programs provide wage replacement benefits, medical treatment,
                     vocational rehabilitation, and other benefits to certain workers who
                     experience work-related injury or occupational disease or to their
                     dependents.


     ESA Changes Black Lung
     Benefits Program's Oxycontin
     Payment Policy

                     On June 15, 2001, the Black Lung Benefits program changed its
                     payment policy for Oxycontin, a prescription drug that has been linked to
                     a number of deaths in southwest Virginia. The change resulted from the
                     Black Lung Benefits program's review of Oxycontin prescription usage
                     and collaborative efforts and discussion with the OIG. Following the
                     Black Lung Benefits program's review of Oxycontin prescription
                     charges, the program asked the OIG to investigate allegations of
                     excessive charges for Oxycontin prescriptions on a Black Lung Benefits
                     program recipient's account. The ensuing investigation determined that
                     the Black Lung Benefits recipient's son had been submitting claims for
                     prescriptions for the drug on behalf of his father's Black Lung Benefits
                     account. However, the investigation revealed that the son was then
                     selling the drugs. The Black Lung Benefits program change now
                     requires documentation from physicians to verify that the pain
                     medication is for treatment of pneumoconiosis (also known as black lung
                     disease).


Medical Provider Fraud
                     Fraud by service providers is generally perpetrated by submitting claims
                     for services or goods not provided or delivered, billing for treatment not
                     related to the approved medical condition or disability, double-billing,
                     upcoding (billing under a more expensive treatment service code than
                     that for the treatment actually provided), or unbundling (breaking one
                     service into several services with separate charge codes) to fraudulently
                     obtain personal financial gain.


30                                                              Semiannual Report to the Congress
                                                                 April 1, 2001–September 30, 2001
                                                                         Worker Benefits
         Office of Workers' Compensation Programs                          Programs


   Virginia Doctor Found Guilty of
   Illegally Dispensing Narcotics

                            On May 25, 2001, Dr. Franklin Sutherland of Grundy, Virginia, was found
                            guilty on 427 counts of dispensing schedule II and III narcotics (including
                            Oxycontin) without a legitimate medical purpose. As Dr. Sutherland was
                            a large-volume provider of medical services through the Federal Black
                            Lung Benefits program, many of the illegally prescribed drugs went to
                            Black Lung claimants. This investigation is part of a continuing OIG
                            probe into Black Lung medical provider fraud in rural Virginia with the
                            Virginia State Police, the FBI, the Drug Enforcement Administration
                            (DEA), the IRS CID, the Department of Health and Human Services
                            OIG, the Virginia Department of Health Professions, and the Virginia and
                            West Virginia Medicaid Fraud Control Units. U.S. v. Sutherland (W.D.
                            Virginia)

   Former West Virginia Hospital
   Administrator Sentenced to
   Eight Years in Prison

                            On April 23, 2001, C. David Morrison, former Logan General Hospital
                            administrator, was sentenced to eight years in prison and five years'
                            probation. He was also ordered to make restitution in the amount of
                            $375,000 and to pay over $15,000 in fines. Also sentenced for his part in
                            the embezzlement scheme was Morrison's partner, Donald Cabell, who
                            received six months' home confinement and three years' probation. He
                            was also ordered to pay nearly $350,000 in restitution and to liquidate all
                            corporate and personal assets to pay the restitution.

                            The investigation revealed that Morrison and Cabell had embezzled
                            over $636,000 from the hospital and diverted over $4.5 million from
                            employees' payroll taxes to finance business ventures through their for-
                            profit company, American Development Corporation. As a result of the
                            fraud, this rural Appalachian hospital, which provided services to
                            Medicare, Medicaid, and Black Lung Benefits recipients, was forced into
                            bankruptcy. This investigation was a joint effort with the IRS CID, the
                            West Virginia Medicaid Fraud Control Unit, and the West Virginia State
                            Police. U.S. v. Morrison, U.S. v. Cabell (S.D. West Virginia)

   Virginia Doctors Indicted in
   Racketeering Drug Conspiracy

                            On July 25, 2001, a husband and wife (both physicians) who owned and
                            operated a clinic in Oakwood, Virginia, were indicted on over 140
                            violations, including racketeering, conspiracy, money laundering,



Semiannual Report to the Congress                                                                   31
April 1, 2001–September 30, 2001
      Worker Benefits
        Programs                    Office of Workers' Compensation Programs


                     receiving kickbacks, unlawfully dispensing prescription drugs, and mail
                     fraud. The investigation alleges that from 1987 through 2000, the two
                     physicians allegedly:
                        •   defrauded the Black Lung Benefits program by billing more than
                            $1.1 million for unnecessary medical services;
                        •   defrauded Medicare of more than $100,000 by using false
                            diagnoses on claims;
                        •   wrote checks and made withdrawals of more than $3.5 million
                            from the proceeds of the fraud scheme;
                        •   received kickbacks from the co-located pharmacy for directing
                            patients to the pharmacy to fill their prescriptions; and
                        •   dispensed schedule II and III narcotics (including Oxycontin)
                            without legitimate medical purposes.
                     In 1989, the Black Lung Benefits program declined to pay medical
                     billings submitted by the husband following the Black Lung Benefits
                     program's review of his billings and his criminal conviction for selling
                     certificates of medical necessity. His wife, however, obtained her own
                     provider status and continued to treat her husband's patients. The
                     investigation was conducted by a task force comprised of the IRS CID,
                     the DOL OIG, the Department of Health and Human Services (HHS)
                     OIG, the Virginia State Police, the Virginia Department of Health
                     Professions, the Virginia Attorney General's Medicaid Fraud Control
                     Unit, the FBI, and the DEA's Drug Diversion Unit.

     Physician Sentenced in Tennessee
     to Two Years in Prison and Ordered
     to Pay over $220,000

                     On August 24, 2001, Dr. John Campa was sentenced to two years'
                     imprisonment followed by three years' probation and was ordered to pay
                     over $220,000 in restitution and fees. The sentencing followed Campa's
                     guilty plea to 77 counts of mail fraud, healthcare fraud, making false
                     statements by billing for supplies not used, and upcoding. Total fraud in
                     the case is conservatively estimated in excess of $850,000 over a three-
                     year period, with losses to OWCP, other Federal compensation
                     programs, and private insurance companies. The OIG participated in
                     this investigation with the Tennessee Valley Authority OIG, the Defense
                     Criminal Investigative Service, the Special Investigations Unit-Blue
                     Cross/Blue Shield, and the HHS OIG. U.S. v. Campa (E.D. Tennessee)

Claimant Fraud
                     Claimant fraud involves the concealment or false reporting of employment
                     and income by an individual who continues to receive program benefits
                     or services. In the FECA program alone, over $2 billion in medical and


32                                                             Semiannual Report to the Congress
                                                                April 1, 2001–September 30, 2001
                                                                          Worker Benefits
         Office of Workers' Compensation Programs                           Programs


                            death benefits and wage loss compensation were paid from July 1, 1999,
                            to June 30, 2000, with more than 53% of these benefits paid to injured
                            employees of the U.S. Postal Service, the Department of the Navy, and
                            the Department of the Army. The OIG continues to work joint cases with
                            other Federal investigative agencies and instruct them on how to conduct
                            FECA investigations more efficiently and effectively. This has been
                            especially true, most recently, with Department of Defense criminal
                            investigative units from the U.S. Army and Navy. It is important to note that
                            the removal of a single fraudulent claimant from Federal benefit rolls
                            creates, on average, a $300,000 to $500,000 savings for the government.


   North Carolina Carpenter
   Ordered to Pay over $338,000
   for Defrauding FECA Program

                            Dorman S. Poythress, a former civilian carpenter for the Marine Corps
                            Air Station at Cherry Point, North Carolina, was sentenced to a year in
                            prison and three years' probation and was ordered to pay over $338,000
                            in restitution. A FECA recipient since December 1972, Poythress falsely
                            reported annually that he was unable to work and that he was not
                            working when, in fact, he had been working as a contractor in a home
                            repair business since 1974. The investigation was conducted jointly with
                            the Marine Corps, the IRS Criminal Investigative Division, and the Naval
                            Criminal Investigative Service at the Marine Corps Air Station at Cherry
                            Point, North Carolina. U.S. v. Poythress (E.D. North Carolina)

   Arkansas Couple Sentenced to
   Pay over $200,000

                            John Rankin, a former FECA recipient, and his wife, Laura Rankin, a
                            former recipient of Social Security disability benefits, were sentenced on
                            August 20, 2001, for defrauding the FECA and Social Security
                            programs. The Rankins each received a sentence that included six
                            months' home detention and 18 months' probation. Moreover, they were
                            ordered to pay restitution in the amounts of over $95,000 and $113,000,
                            respectively. John Rankin claimed he had injured his back in 1990. He
                            worked until July 1994, when he left his job with the Army Corps of
                            Engineers and began receiving workers' compensation benefits. During
                            this time, Laura Rankin filed for and began receiving Social Security
                            disability benefits and submitted documentation indicating that she was
                            also unemployed. This joint DOL OIG, SSA OIG, and Corps of Engineers
                            investigation revealed that from approximately 1996 to 1999, John and
                            Laura Rankin owned and operated a home-building business in Ozark,
                            Arkansas. U.S. v. Rankin (W.D. Arkansas)

Semiannual Report to the Congress                                                                     33
April 1, 2001–September 30, 2001
      Worker Benefits
        Programs                    Office of Workers' Compensation Programs


     Former Defense Department Truck
     Driver to Pay over $102,000

                     FECA recipient Michael Streath was sentenced on April 30, 2001,
                     following his December 2000 guilty plea to FECA fraud for failing to report
                     income earned as a delivery person. Streath was sentenced to six months
                     in jail, followed by six months' home detention and three years' probation.
                     He was also ordered to pay over $102,000 in restitution. Streath was a
                     civilian truck driver at the Marine Corps Air Station at Cherry Point, North
                     Carolina, when he reportedly injured his back in 1989 and began receiving
                     FECA benefits. The investigation revealed that Streath had been working
                     as a delivery person since the summer of 1994 and had failed to report his
                     employment to OWCP. The investigation was conducted jointly with the
                     U.S. Marine Corps, the IRS Criminal Investigative Division, and the Naval
                     Criminal Investigative Service. U.S. v. Streath (E.D. North Carolina)


     Georgia Electrician Sentenced
     for Benefits Fraud

                     On July 13, 2001, Claude Alexander, a FECA recipient of Cleveland,
                     Georgia, was sentenced to six months' imprisonment and six months'
                     home confinement after pleading guilty in April 2001 to charges of FECA
                     fraud and Social Security fraud for failing to report income earned as a
                     foreman for an electrical contractor. He was ordered to pay nearly
                     $100,000 in restitution and fees and to forfeit all future FECA benefits.
                     Alexander had been receiving benefits since 1994 for an on-the-job injury
                     he sustained while employed as a maintenance mechanic for the U.S.
                     Army Corps of Engineers. The investigation was conducted jointly with the
                     U.S. Army Corps of Engineers, the U.S. Army Criminal Investigative
                     Service, and the SSA OIG. U.S. v. Alexander (N.D. Georgia)

     Connecticut Attorney Disbarred for
     Defrauding Longshore Program

                     On July 2, 2001, James Shanley, an attorney from Madison, Connecticut,
                     was sentenced to six months' home detention and three years' supervised
                     release and was ordered to pay restitution of over $109,000 to the
                     Longshore and Harbor Workers’ Compensation fund. He had previously
                     pled guilty in June 2001, to charges of making false statements regarding
                     Longshore benefits. In addition, Shanley was disbarred for life from
                     practicing law in the State of Connecticut for misconduct as a conservator
                     for a former longshoreman who was in a nursing home. The OIG
                     investigation disclosed that for the period of five years following the
                     longshoreman's death in September 1994, Shanley did not advise OWCP
                     of the death of his client and instead converted over $109,000 to his own
                     use. U.S. v. Shanley (D. Connecticut)


34                                                               Semiannual Report to the Congress
                                                                  April 1, 2001–September 30, 2001
               Fostering
                Quality
              Workplaces
             That Are Safe,
              Healthy, and
                  Fair




Worker Safety, Health,
and Workplace Rights
The responsibilities of the Department under this goal are to foster safe and healthy
workplaces; interface with international bodies addressing core labor standards and
international child labor issues; increase the representation, advancement, and
promotion of women, minorities, veterans, and the disabled in jobs; and promote
compliance with the Family and Medical Leave Act.



The OIG assists the Department in promoting the safety, health, and workplace
rights of workers by assessing the effectiveness of programs designed to protect
workers and, within our jurisdiction, investigating violations of such laws.
                                                                    Worker Safety, Health,
     Occupational Safety and Health Administration                  and Workplace Rights


                            The missions of the Occupational Safety and Health Administration
                            (OSHA) and the Mine Safety and Health Administration (MSHA) are to
                            save lives, prevent injuries, and protect the health of workers. OSHA
                            protects more than 100 million workers and is responsible for the safety
                            and health of workers in nearly every workplace in the United States.
                            MSHA is specifically responsible for ensuring the safety and health of
                            miners, and it works with the mining community to eliminate fatalities,
                            reduce the frequency and severity of accidents, and minimize health
                            hazards associated with the mining industry.


    OSHA Can Further Address
    Workplace Violence Issues

                            Workplace violence issues have received considerable attention in
                            recent years. According to data released by the Bureau of Labor
                            Statistics, workplace homicides have decreased significantly since
                            1994, from a high of 1,080 to a low of 645 in 1999. However, the data
                            show an increase in work-related homicides in the last year to 671.
                            During the period 1992 to 2000, work-related homicides averaged 17 per
                            week, and assaults averaged 38,000 per week.

                            We evaluated OSHA's efforts in the following areas: providing guidance
                            to its inspectors on the handling of workplace violence issues; examining
                            internal systems designed to track workplace violence issues; and
                            providing training and outreach to OSHA enforcement staff and to the
                            public. We found that although OSHA has taken a number of steps to
                            address the issue of workplace violence, OSHA has not issued any
                            workplace violence citations since 1995, despite the fact that there have
                            been over 3,500 workplace violence homicides and approximately 8
                            million assaults during that period.

                            We recommended that OSHA provide guidance to its inspectors on
                            whether citations should still be issued for workplace violence issues.
                            OSHA responded that its inspectors are to follow the guidance in OSHA's
                            field inspection manual for the development of all cases. OSHA's policy
                            regarding workplace violence remains as articulated in a memorandum
                            issued in 1996 stating that all proposed citations for workplace violence
                            are to be submitted to the national office for review and approval. OSHA
                            further responded that the complexity of this issue due to different types
                            and characteristics of workplace violence and its political ramifications
                            requires that all cases be evaluated on a case-by-case basis. (OCIE
                            Report No. 2E-10-105-0002, issued September 26, 2001)




Semiannual Report to the Congress                                                                  37
April 1, 2001–September 30, 2001
Worker Safety, Health,
and Workplace Rights               Occupational Safety and Health Administration


     New York Construction
     Company Owner Pleads Guilty
     in OSHA Violations Case

                    Eugene Ostreicher, owner of Industrial Enterprises, pled guilty on
                    June 28, 2001, to making false statements to an OSHA inspector
                    regarding a building collapse in February 1996. Ostreicher's
                    construction company was responsible for the construction of a building
                    that collapsed in November 1999, resulting in a worker's death. Per the
                    plea agreement, Ostreicher will pay $1 million in restitution to the victims
                    of the 1999 collapse and $100,000 to OSHA for site violations and will be
                    barred for life from any involvement in the construction industry. The
                    investigation disclosed that the buildings owned by Ostreicher had had
                    a series of accidents and collapses due to the use of substandard
                    materials, failure to use necessary supplies, and minimal or
                    inexperienced supervision over workers. The workers were mostly day
                    laborers — illegal aliens who were paid in cash and told by Ostreicher
                    and a foreman to use improper methods and materials to save time and
                    money. This investigation was conducted jointly with OSHA.
                    U.S. v. Ostreicher (E.D. New York)




38                                                             Semiannual Report to the Congress
                                                                April 1, 2001–September 30, 2001
                                                                    Worker Safety, Health,
               Mine Safety and Health Administration                and Workplace Rights

    MSHA Can Enhance the Metal/
    Non-Metal Accident Reduction
    Efforts Currently Under Way

                            We conducted a study of MSHA's enforcement and compliance
                            assistance activities to examine trends and identify areas for
                            improvement. We found that MSHA enforcement and compliance
                            assistance activity is more complex than generally perceived and that
                            MSHA inspectors are responsible for performing over 25 types of
                            enforcement and compliance assistance activities. This significant
                            breadth of responsibility, combined with rapid turnover in mine
                            operations, reductions in the numbers of inspectors, and shifts in public
                            policy orientation, inhibits MSHA's full performance of statutory duties.
                            The characteristics of enforcement and compliance assistance activities
                            contribute to several concerns.

                            We found that Metal/Nonmetal programs require greater integration and
                            coordination in order to effectively fulfill the safety mission of MSHA.
                            Consistency in program implementation and management is hampered
                            by shortcomings in the guidance provided to district management.
                            Additionally, while MSHA easily adapted to GPRA reporting
                            requirements, the measures of outcome performance do not require
                            significant reductions in injuries and fatalities. For example, under
                            MSHA's FY 2001 performance plan, a reduction of one death would fully
                            meet the goal. Further, an unavoidable feature of many activities
                            performed by MSHA is their retrospective nature. The OIG realizes the
                            necessity of reacting to developing situations. However, MSHA Metal/
                            Nonmetal needs to identify successful features of current programs and
                            revise enforcement and compliance assistance activities in order to
                            increase proactive approaches to help prevent injuries and fatalities.

                            Finally, programs and initiatives developed to improve the safety and
                            health of miners require inspectors to engage in an increasing number of
                            activities. The amount of time required to perform these duties creates a
                            series of trade offs among the various activities. We recommended that
                            MSHA carefully examine its resource allocation and utilization to
                            determine the most effective enforcement agenda. MSHA agreed that
                            the recommendations will enhance the accident reduction efforts
                            currently under way. (OCIE Report No. 2E-06-620-0003, issued
                            September 26, 2001)




Semiannual Report to the Congress                                                                 39
April 1, 2001–September 30, 2001
Worker Safety, Health,
and Workplace Rights                 Davis-Bacon Act


                     The Davis-Bacon Act requires the payment of prevailing wage rates and
                     fringe benefits on federally financed or assisted construction. The OIG
                     selectively focuses on investigating violations by contractors engaged in
                     Federal construction projects who submit falsified certified payroll records.


     Over $1 Million Contract
     Terminated for Davis-Bacon
     Violations

                     On August 23, 2001, the U.S. Army Engineering District in Honolulu,
                     Hawaii, terminated a contract awarded to John Phelps and Ash Painting
                     to repair electrical systems at Schofield Barracks Army Base in Hawaii.
                     The decision to terminate the Federal contract was based on Ash
                     Painting's failure to comply with the terms of the contract, including
                     failure to pay prevailing wages and to make 401(k) pension plan
                     contributions for its employees. The total amount of funds that were de-
                     obligated based on these actions is over $1 million. These violations
                     were identified by, and are part of an ongoing investigation with, the
                     Defense Criminal Investigative Service, the FBI, DOL's Pension and
                     Welfare Benefits Administration (PWBA), and DOL's Wage and Hour
                     Division.

     Pennsylvania Firm and Partners
     to Pay Nearly $2 Million for
     Failing to Pay Prevailing Wages

                     On July 10, 2001, Bruce Hackney, owner and president of the Hackney
                     Group, Inc. (HGI), was sentenced to two years and nine months in prison
                     and two years' probation. HGI was sentenced to five years' probation,
                     and Hackney and HGI are jointly responsible with partner Arnold
                     Francisco for restitution of nearly $2 million for withholding prevailing
                     wages owed to subcontractors on several Federal contracts. Francisco
                     had previously pled guilty and was sentenced in May 2001 to a year in
                     prison, three years' probation, a $10,000 fine, and his share of the
                     restitution. HGI failed to perform on many contracts, causing the bonding
                     company to pay out millions of dollars to finish the work. This was a joint
                     investigation with the Army Criminal Investigative Division and the Air
                     Force Office of Special Investigations. U.S. v. Hackney, et al. (E.D.
                     Pennsylvania)




40                                                               Semiannual Report to the Congress
                                                                  April 1, 2001–September 30, 2001
    Maintaining a
    Departmental
      Strategic
    Management
        Focus




Departmental
Management
In FY 2001, the Department's information technology (IT) budget exceeded a quarter
of a billion dollars and covered 67 mission-critical applications and general support
systems. These large and complex systems process information and data on benefits
eligibility and compensation; injury and illness statistics; union representation and
elections; economic indicators; pension and welfare benefit plans; employer/contractor
hiring status and wage practices; and grant funds distribution.


A high-quality IT environment is key to obtaining the programmatic and financial
information needed to manage for results. As the Department continues to expand its
use of IT (e.g., in procurement, payroll, benefits payments, labor market information,
enforcement, and training), it becomes increasingly important to audit the development
and implementation of IT systems. It is critical to ensure that these systems meet their
intended objectives at reasonable cost. Moreover, it is crucial to protect these IT assets
and the information contained within them (e.g., for privacy information). The OIG is
involved in auditing these IT systems, as well as providing consultative assistance, in
order to improve the management of departmental IT assets. For example, the OIG:

    •   will continue to prioritize its resources and develop a focused cyber-security
        testing and evaluation capability to perform independent audits and evaluations
        of additional mission-critical systems, new IT initiatives, DOL-wide and agency-
        specific security programs, and related business contingency and IT disaster
        recovery plans;

    •   is playing a key role in ensuring that the Department and its agencies manage
        information and operate DOL's IT resources based on a reliable risk-based
        security program that is consistent with the intent of Congress and the
        Government Information Security Reform Act; and

    •   will perform vulnerability analyses by doing on-site inspections and using
        computer laboratory analyses to determine the effectiveness of cyber and
        physical controls designed to prevent potential threats and identify intrusions.


Our efforts involve verifying and validating completed risk assessments. The results
from these efforts will be given to DOL and component agency executives and
managers for them to make decisions to strengthen their information and IT controls.
Following are highlights of our work in the IT area.
                                                                              Departmental
                                    Information Technology                    Management


    DOL IT Infrastructure Was
    Vulnerable to Intrusion

                            As required by Presidential Decision Directive 63 (PDD 63), we tested
                            five agency components' general support systems and identified
                            material weaknesses in procedures and practices in management
                            controls (which include security control reviews, system security plans,
                            and certification and accreditation) and technical controls (which include
                            identification and authentication, logical access controls, audit trails, and
                            incident response capabilities).

                            During OIG’s internal vulnerability testing of network systems, the OIG
                            discovered easy access to critical files and programs by exploiting the
                            systems' technical security weaknesses in all but one of the general
                            support systems. The OIG was able to utilize weak passwords (e.g.,
                            easily recognizable dates and words), default passwords, and
                            unpatched system vulnerabilities to compromise the network's general
                            support systems. During external testing, the OIG did not gain access to
                            any of the systems tested.

                            At OASAM’s request, we conducted a technical security audit of the
                            Department's employee computer network and also found control
                            weaknesses.

                            We alerted the affected agencies, which expeditiously acted to begin to
                            correct the OIG-identified technical weaknesses in their general support
                            systems. Agencies are continuing their efforts to resolve these problems.
                            (OA Report Nos. 03-01-005-07-001, issued July 12, 2001; 23-01-
                            006-10-001, issued September 24, 2001; 23-01-004-03-315, issued
                            September 26, 2001; and 23-01-011-06-001, issued September 28, 2001)

    DOL Relied on Outdated Information
    to Protect Its IT Infrastructure

                            In addition to conducting vulnerability assessments, the OIG also audited
                            the Department's planning and assessment activities for protecting its
                            physical (i.e., non-cyber-based) critical infrastructures. PDD 63 requires a
                            national effort to ensure the security of the nation's critical infrastructure.
                            Critical infrastructure is defined as those physical and cyber-based
                            systems that are essential to the minimum operations of the economy and
                            government and includes telecommunications, banking and finance,
                            energy, transportation, and government services. In addition to
                            requirements for state and local governments and private-sector partners,
                            PDD 63 requires that by 2003, the Federal government shall have
                            achieved the ability to protect its critical infrastructures from intentional
                            acts that would significantly diminish its ability to perform essential national
                            security missions and ensure the general public health and safety.


Semiannual Report to the Congress                                                                        43
April 1, 2001–September 30, 2001
       Departmental
       Management                     Information Technology


                       We found the Department's efforts to protect its minimum essential
                       infrastructure were in need of update and were limited in focus. For
                       example, its 1999 Critical Infrastructure Protection Plan (CIPP), which is
                       required by PDD 63, was not kept current with the inventory of critical
                       cyber systems and related physical facilities. Additionally, the Department
                       relied on assessments and/or surveys conducted by other Federal
                       government interests, such as the General Services Administration.

                       The Department agreed with our findings and recommendations and
                       has stated its intentions to implement improvements. For example, DOL
                       stated that it has drafted an updated CIPP and has established
                       additional milestones covering the period of August 2001 to July 2003 to
                       improve its overall protection of the Department's critical infrastructure.
                       The OIG believes that the Department's proactive approach will lead to
                       its meeting the requirements of PDD 63. (OA Report No. 23-01-002-07-
                       711, issued July 20, 2001)

     DOL Needs to Implement
     Controls to Limit Risk to Its
     IT Operations

                       The OIG performed an evaluation of eight departmental applications in
                       accordance with the Government Information Security Reform Act. The
                       evaluations covered a subset of DOL's 67 mission-critical systems.
                       During our review, we found that although the Department has issued
                       much guidance to its agencies relating to IT security, the biggest
                       challenge facing the Department will be to ensure that agencies continue
                       to implement the management and technical controls necessary to limit
                       the risk to operations and assets under their control.

                       We identified high-risk control issues that, if unaddressed, have the
                       potential to impair the Department's ability to execute core business
                       functions (including payroll and benefits functions) or compromise the
                       confidentiality, integrity, or availability of system and information
                       resources. These include risk management, life cycle issues,
                       authorization processing, system security planning, contingency
                       planning, documentation, and incident response. The Department's chief
                       information officer reported similar findings to the Office of Management
                       and Budget (OMB) and is also required to address all vulnerabilities
                       identified by the OIG in a mitigation plan due to OMB on October 31, 2001.
                       (OA Report Nos. 23-01-005-11-001, issued September 24, 2001; 23-01-
                       006-10-001, issued September 24, 2001; 23-01-007-04-001, issued
                       September 25, 2001; 23-01-008-04-001, issued September 25, 2001; and
                       23-01-011-06-001, issued September 28, 2001)




44                                                                Semiannual Report to the Congress
                                                                   April 1, 2001–September 30, 2001
                                                                            Departmental
                                        Audit Resolution
                                                                            Management


    $5 Million in Overstated
    Costs Disallowed

                            The OIG audited the New York State Department of Labor (NYSDOL)
                            JTPA Title III program expenditures for the period April through June
                            1999 to identify the reason for a large increase in program expenditures
                            for the last quarter of PY 1998 and to determine whether the increased
                            expenditures were allowable. We found that NYSDOL transferred
                            expenses from various non-Title III cost centers to the JTPA Title III
                            program to avoid ETA recapture of PY 1998 Title III funds and that it
                            overstated personnel service costs by $5,023,129 and labor exchange
                            service costs by $1,079,349 in its Title III financial reports to ETA for the
                            period ended June 30, 1999.

                            NYSDOL disagreed with the OIG audit findings, but on August 31, 2001,
                            ETA disallowed all of the personnel service costs transferred into Title III,
                            while allowing all of the labor exchange service costs transferred into
                            Title III. (OA Report No. 02-00-214-03-340, issued September 28, 2000)




Semiannual Report to the Congress                                                                     45
April 1, 2001–September 30, 2001
    Ensuring That a
   Union or Benefit
   Plan Is Operated
   for the Benefit of
     Its Members




       Labor
Racketeering
The Office of Inspector General (OIG) at the Department of Labor is unique among Inspectors General
because it has an “external” program function to conduct criminal investigations to combat the influence of
labor racketeering and organized crime in the nation’s labor unions. Labor racketeering is the infiltration,
domination, and/or use of a union or employee benefit plan for personal benefit by illegal, violent, or fraudulent
means. Organized crime is defined as activities carried out by groups with a formalized structure whose
primary objective is to obtain money through illegal activities. Traditionally, organized crime has been carried
out by La Cosa Nostra groups, also known as the “mob” or “mafia.” However, new groups are emerging and
organizing. For example, organized crime groups now include Asian, Russian, Eastern European, Nigerian,
and West African groups.

While the average American citizen may not be fully aware of the labor racketeering activities carried out by
organized crime groups, they are directly affected by it. Because organized crime’s exercise of market power
is usually concealed from public view, millions of consumers unknowingly pay what amounts to a tax or
surcharge on a wide range of goods and services. In addition, by controlling a key union local, organized crime
can control the pricing in an entire industry. Moreover, the public also suffers when organized crime
orchestrates illicit strikes and work slowdowns or resorts to violence to maintain its operation of labor rackets.

Over the past two decades, the OIG has conducted extensive criminal investigations of labor racketeering.
Traditionally, organized crime has been involved in loan-sharking, gambling, benefit plan fraud, violence
against union members, embezzlement, and extortion. OIG investigations have uncovered millions of dollars
of workers’ dues and benefit monies that have been siphoned off by organized crime through embezzlement
or more sophisticated devices, such as fraudulent loans or excessive fees paid to corrupt union and benefit
plan service providers. Our investigations continue to identify complex financial and investment schemes used
to defraud pension assets, resulting in millions of dollars in losses to plan participants.

Our investigations have also revealed that the construction, surface transportation, maritime, garment
manufacturing, motion picture production, and gambling and hotel services industries are particularly prone
to the infiltration of labor racketeering. Of major concern to the OIG is the boom in the highway construction
industry created by the recently enacted Transportation Equity Act. This act provides $200 billion in funding
for highway projects and has provided a significant stimulus to the construction and maintenance sectors of
the highway transportation industry. The infusion of vast sums of money into the construction industry, which
has historically been influenced by organized crime and labor racketeering, has increased the need for
oversight to reduce fraud and manipulation of unions, worker benefit plans, and labor-management
relationships.

Moreover, while traditional labor racketeering violations persist, the OIG is seeing new trends in the inventory
of its cases. For example, unions are now being used to facilitate such illicit activities as smuggling, theft rings,
and drug trafficking. In one recent joint OIG investigation, two Teamsters members who had pled guilty to
conspiring to import controlled substances in a related U.S. Customs Bureau drug case testified that they had
used their union membership to facilitate cocaine and marijuana importation. In addition, the OIG is
participating in the Department of Justice’s worker exploitation task force. Our investigations have involved
alien smuggling and organized crime in the workplace, as well as worker exploitation. They also involve
industries with significant organized crime influence, both traditional and nontraditional, in which illegal aliens
are vulnerable to a variety of racketeering schemes.

As labor racketeering evolves and moves beyond its traditional activities, the OIG is expanding its investigative
program to address these new areas. The following cases are illustrative of our work in helping to eradicate
both traditional and nontraditional labor racketeering in the nation’s labor unions, employee benefit plans, and
workplaces.
                                                                       Labor Racketeering
                             Benefit Plan Investigations


                            In addition to investigating corruption involving general union funds, the
                            OIG is responsible for combating corruption involving the monies in union-
                            sponsored benefit plans. These pension plans and health and welfare
                            benefit plans control hundreds of billions of dollars in assets. Our
                            investigations have shown that these vast sums of money remain
                            vulnerable to corrupt union officials and organized crime influence.
                            Service providers to union benefit plans continue to be a strong focus of
                            the OIG's investigations, particularly those servicing pension plans. The
                            OIG remains concerned that, with such large amounts of money and
                            limited oversight, union-affiliated benefit plans remain vulnerable to fraud
                            and corruption. The cases summarized in this section include examples
                            of both health plan and pension plan corruption. Also highlighted below
                            are examples of cases that involve employers who failed to make
                            contributions to union retirement plans or who stole single-employer plan
                            assets entrusted to them.


    Rhode Island Investment
    Manager Ordered to Repay
    $8.1 Million

                            On May 22, 2001, Todd LaScola, former investment manager of the
                            International Brotherhood of Electrical Workers (IBEW) Local 99
                            pension fund, was sentenced to eight years in prison and three years'
                            probation and was ordered to pay over $8 million in restitution for
                            defrauding investors, workers, and IBEW Local 99 of pension funds. As
                            president of CPI Financial Services, an investment firm in Providence,
                            Rhode Island, LaScola transferred funds from individual client accounts
                            to cover $6 million in losses from a prohibited investment of the IBEW
                            Local's pension funds. To conceal his actions, LaScola sent clients
                            phony quarterly statements on the supposed investment of their monies.
                            This case was investigated jointly with the FBI, the U.S. Postal
                            Inspection Service, the Rhode Island State Police, PWBA, the Rhode
                            Island Division of Business Regulation, and the U.S. Securities and
                            Exchange Commission. U.S. v. LaScola (D. Rhode Island)




Semiannual Report to the Congress                                                                    49
April 1, 2001–September 30, 2001
     Labor Racketeering
                                     Benefit Plan Investigations


     Massachusetts Company
     Owners Sentenced to Pay
     Nearly $600,000

                      Robert and Paul Buonopane, owners of B&B Acoustical Contractors,
                      Inc., in Woburn, Massachusetts, were sentenced on June 15, 2001,
                      following their conviction on 29 counts of conspiracy, mail fraud, and
                      aiding and abetting for illegally concealing company wages. The
                      Buonopanes each received a sentence of a year in prison and two years'
                      probation and were ordered to pay restitution of nearly $600,000. By
                      conducting an under-the-table cash wage scheme and concealing the
                      money from the company's payroll service over a four-year period, the
                      Buonopanes substantially underpaid unemployment insurance taxes,
                      insurance premiums, and nearly $275,000 in contributions due to the
                      Massachusetts Carpenters' Union fringe benefit funds. This
                      investigation was conducted jointly with the IRS CID and the Insurance
                      Fraud Bureau of Massachusetts. U.S. v. Buonopane (D. Massachusetts)

     California Defendants Plead
     Guilty to $4 Million Scam

                      On April 24, 2001, Stephen Gaines and Neal Katz, principal officers in
                      the investment firm Capital Access, Inc., pled guilty to mail fraud and
                      money laundering charges relating to a fraudulent investment scheme.
                      Gaines and Katz solicited more than $4 million of investors' funds,
                      including funds from ERISA-covered profit sharing plans, in "bank
                      trading programs," which were supposed to involve the buying and
                      selling of commercial paper issued by European banks. Instead, they
                      invested the funds in other ventures (including a gold and silver mining
                      operation and the development of a new process to extract crude oil) and
                      used them to support their lifestyles. To prevent detection of the fraud
                      and to induce additional investments, the defendants made "lulling
                      payments" to investors, which they falsely claimed represented the
                      proceeds of the bank trading program investment. They are both
                      awaiting sentencing. This was a joint investigation with the IRS CID and
                      the FBI. U.S. v. Gaines, et al. (N.D. California)

     Indiana Investment Advisor
     Pleads Guilty to Benefit Plan
     Embezzlement

                      On May 18, 2001, Michael Daher, Sr., former registered investment
                      advisor for Indiana-based Local 1969 of the International Longshoremen's
                      Association, pled guilty to embezzlement from an employee benefit plan
                      and to wire fraud. Daher admitted that he and an accomplice had



50                                                             Semiannual Report to the Congress
                                                                April 1, 2001–September 30, 2001
                                                                       Labor Racketeering
                             Benefit Plan Investigations


                            embezzled approximately $1.5 million of Local 1969's benefit plan
                            monies between November 1993 and September 1996, in part by
                            convincing the fund trustees to invest over $4 million in the construction
                            of a Nevada housing project. Unknown to the fund trustees, Daher and
                            his accomplice had entered into a side agreement with the developer,
                            who agreed to pay "points" for every investment dollar brought into the
                            project. The case was a joint investigative effort with PWBA. U.S. v.
                            Daher (N.D. Indiana)

    Former Chicago Labor Union
    Official Found Guilty in Pension
    Kickback Scheme

                            On July 16, 2001, former labor union official John Serpico and two
                            associates were found guilty of mail fraud charges related to their multi-
                            million dollar scheme to defraud several Chicago-based union pension
                            plans and a labor organization. The three had been indicted in 1999 on
                            racketeering and other offenses. They were found to be controlling the
                            affairs of the Central States Joint Board (CSJB), a Chicago-based labor
                            organization, for their personal benefit from May 1979 to 1991. Our
                            investigation found that in return for placing CSJB union and pension
                            funds at area banks, Serpico and another individual received at least
                            $5 million in personal and business loans from banks on terms more
                            favorable than those available to regular bank customers.

                            In addition, the other individual was indicted on charges in connection
                            with allegedly scheming with Serpico from July 1989 to April 1991 to
                            defraud the Midwest Pension Plan, the CSJB Staff Pension Plan, and
                            the International Union of Allied Novelty and Production Workers. Our
                            investigation revealed that he allegedly solicited and received a
                            substantial kickback in exchange for influencing these plan and union
                            officials to provide a hotel construction loan for $6.5 million. Moreover,
                            Serpico had $100,000 in cash from this kickback arrangement delivered
                            to the other individual for the purchase of a home. Serpico had previously
                            been removed from his position with the Laborers International Union of
                            North America for his ties to major Chicago organized crime figures. This
                            investigation, which is the culmination of a multi-faceted investigation of
                            Serpico, his associates, and their activities, was conducted with the FBI,
                            the IRS, and DOL's Office of Labor-Management Standards. U.S. v.
                            Serpico, et al. (N.D. Illinois)




Semiannual Report to the Congress                                                                   51
April 1, 2001–September 30, 2001
     Labor Racketeering
                                   Benefit Plan Investigations


     Two Organized Crime Family
     Associates Charged with
     Embezzlement

                    On April 25, 2001, in a superseding RICO indictment, two associates of
                    the Colombo Crime Family were indicted on charges of embezzlement
                    from an employee benefit plan. The prior indictment had charged 16
                    defendants, consisting of members and associates of the Colombo
                    Crime Family, with various predicate acts in violation of the RICO
                    statute.

                    The investigation found that since January 1998, the two associates
                    allegedly embezzled employee pension and benefit and welfare
                    payments owed to Local 400's Production Workers Union health and
                    welfare funds. The two, who worked for Suffolk Alpa, a trucking
                    company, are alleged to have carried out the fraud by mailing false
                    monthly reports to the benefit plan. Based upon these remittances,
                    which understated the true number of employees working for Suffolk
                    Alpa, they under-reported what was owed to the funds, resulting in a
                    decrease in contributions. This is a joint investigation with the FBI, the
                    IRS, and the INS. U.S. v. Campanella, et al. (E.D. New York)




52                                                            Semiannual Report to the Congress
                                                               April 1, 2001–September 30, 2001
                                                                       Labor Racketeering
                           Internal Union Investigations


                            Our internal union cases often involve instances of corruption, such as
                            union officers' abuse of their positions of authority to embezzle money
                            from union accounts for their own benefit. Investigations in this area
                            also focus on situations in which organized crime groups control or
                            influence a labor organization, frequently in order to exercise influence
                            in an industry for corrupt purposes or to operate traditional vice schemes
                            such as drug dealing and theft. Following are examples illustrative of our
                            work in this area.


    Three Defendants Plead Guilty
    in a Narcotics and Money
    Laundering Scheme in Florida

                            During this semiannual period, Charlie Hall, a home builder, and John
                            Gallo, a California producer of pornographic material, pled guilty to
                            charges of money laundering for their role with a Teamster stevedore in
                            an illegal drug trafficking scheme involving a Miami Teamsters union,
                            Local 390. In May 2001, Keith Lampkin, a Local 390 member, pled guilty
                            to facilitating the same narcotics scheme. Hall pled guilty in May 2001 for
                            his part in laundering the proceeds from the narcotics sales through his
                            business as investments in building homes and apartments. In April
                            2001, Gallo pled guilty to laundering over $1 million in profits generated
                            from the narcotics operation in Local 390. The money was laundered
                            through three pornography companies owned by Gallo and Willie
                            Jackson, a union member of Local 390 (Jackson was previously
                            convicted in a companion U.S. Customs case). The money was
                            laundered through Jackson and Gallo's companies by being reported in
                            the form of profit checks written to Jackson.

                            In another portion of this case, Clarence Lark, the former president of
                            Local 390, and four others were found not guilty in the trial of this
                            trafficking ring operating within Local 390. The October 2000 indictment
                            in this case had named Teamsters Local 390 as a racketeering
                            enterprise through which several union members and officials facilitated
                            the smuggling of over 3,500 kilograms of cocaine and 39,000 kilograms
                            of marijuana into the United States. This investigation was conducted
                            jointly with the U.S. Customs Service, the IRS, and the FBI. U.S. v. Lark,
                            et al. (S.D. Florida)

    Irish Organized Crime Associate
    Sentenced to 10 Years in Prison

                            As part of an ongoing investigation of the Winter Hill Gang's involvement
                            in labor racketeering in the Boston transportation industry, Richard



Semiannual Report to the Congress                                                                   53
April 1, 2001–September 30, 2001
     Labor Racketeering
                                    Internal Union Investigations


                     Hagerty, of Charlestown, Massachusetts, pled guilty to possession of a
                     firearm by a felon during the commission of a felony. He had previously
                     been indicted for this violation and for the kidnapping of James Carter.
                     Carter supplied marijuana to the Charlestown, Massachusetts–based
                     Irish Organized Crime group that controlled the flow of narcotics in the
                     New England area. The investigation disclosed that Hagerty and his co-
                     defendants kidnapped Carter from his home at gunpoint, beat him, and
                     held him for $1 million ransom. Hagerty was also recently sentenced to
                     five years in prison for robbing an armored car. This is a joint
                     investigation with the DEA, the Massachusetts State Police, and the
                     Everett Police Department. U.S. v. Hagerty (D. Massachusetts)


     Chicago Union's Former President
     Pleads Guilty to Racketeering

                     Frank Zeuberis, former president and business manager of Laborers
                     Local 5 in Chicago Heights, Illinois, pled guilty on June 18, 2001, to
                     Federal racketeering violations after he admitted stealing more than
                     $470,000 in union funds for himself, his wife, and a reputed mob
                     lieutenant he had installed in a top union position. The investigation
                     found that between April 1994 and October 1998, Zeuberis engineered
                     a variety of illegal schemes to convert union funds for personal use,
                     including granting unauthorized salary increases, paid vacations, and
                     bonuses to himself and his co-conspirators. The FBI participated in this
                     joint investigation. U.S. v. Zeuberis (N.D. Illinois)

     Former Michigan Teamsters
     Union Official Barred

                     Following a joint OIG and FBI referral, on July 19, 2001, the International
                     Brotherhood of Teamsters’ (IBT's) court-supervised Independent
                     Review Board (IRB) issued an opinion and decision to permanently bar
                     Michael Bane from holding any membership or any position with the IBT
                     or any IBT-affiliated entity. Bane is also prohibited from obtaining
                     employment, consulting, or other work with the IBT or any IBT-affiliated
                     entity. Bane is the former president of IBT Local 614 of Pontiac,
                     Michigan, and had also held a position as an international representative
                     of the IBT, to which he was appointed by the current international
                     president. The IRB actions are the result of Bane’s failing to cooperate
                     with the IRB and giving intentionally misleading sworn testimony
                     concerning his relationship with members of the Detroit La Cosa Nostra
                     family, including Vincent Meli, Anthony Lapiana, Jr., Vito William (Billy
                     Jack) Giacalone, and Nove Tocco.




54                                                              Semiannual Report to the Congress
                                                                 April 1, 2001–September 30, 2001
                                                                       Labor Racketeering
                     Labor-Management Investigations


                            Labor-management relations cases involve improper relationships between
                            management and union officials. Typical labor-management cases range
                            from collusion between representatives of management and corrupt union
                            officials to the use of the threat of "labor problems" to extort money or
                            benefits from employers. Known organized crime members have moved
                            to positions with companies that use criminal contacts to gain favorable
                            advantage through "contractor clubs" using bid-rigging arrangements. In
                            these instances, contractors conspire to monopolize an industry, and each
                            company takes a turn to win a contract. The union is used as a means to
                            enforce bid rigging through extortion or bribery. Organized crime members
                            act as middlemen or as representatives of employers to influence both
                            labor and management. Exposing such relationships can lead to the
                            elimination of illegal practices industry-wide, benefitting workers, honest
                            businesses, and the public at large.


    Former Ohio Construction
    Company Owner Caught in
    Bribery Scheme

                            Canfield, Ohio, contractor James Sabatine admitted and pled guilty on
                            August 13, 2001, to engaging in a pattern of racketeering between
                            June 1993 and December 1999, filing a false tax return for 1994, and
                            understating his income by $239,000. The investigation found that in
                            1998, Sabatine paid a cash bribe of approximately $2,400 to a public
                            official for working with an interstate railroad company to secure a rail
                            line and steady supply of raw materials to produce asphalt at Sabatine's
                            plant. Also, in 1994, Sabatine made two cash bribes of approximately
                            $20,000 to Mahoning County engineer William Fergus, who was
                            convicted in a related investigation, in connection with a 1993 county
                            contract to re-pave a road. In addition, from June 1993 through
                            September 1997, Sabatine made four cash bribes to an employee of the
                            county engineer's office totaling $7,300 to allow Sabatine's former
                            company, Hardrives Paving, to bill for asphalt that was never applied to
                            the roads. The investigation also showed that during the period from
                            July 1995 through November 1998, Sabatine and an accomplice
                            intentionally devised a scheme to defraud the Ohio Public Works
                            Commission and various State of Ohio municipalities by obtaining
                            minority set-aside construction contracts. This case was investigated
                            jointly with PWBA. U.S. v. Sabatine (N.D. Ohio)




Semiannual Report to the Congress                                                                   55
April 1, 2001–September 30, 2001
     Labor Racketeering
                                     Worker Exploitation


                     Since FY 2000, the OIG has supported the Justice Department's worker
                     exploitation task force. We will continue to participate with the Immigration
                     and Naturalization Service, U.S. Attorney's Offices, and DOL's Wage
                     and Hour Division in investigations involving alien smuggling and
                     organized crime in the workplace, as well as worker exploitation. These
                     cases involve industries with significant organized crime influence, both
                     traditional and non-traditional, in which illegal aliens are vulnerable to a
                     variety of racketeering schemes. As situations of organized criminal
                     worker exploitation arise, our efforts in those areas where we have
                     expertise are expected to grow.


     Los Angeles Restaurant Owner
     Sentenced to 11 Years in Prison
     for Worker Exploitation

                     On April 16, 2001, Nur Alamin, owner of The Great Star of India
                     Restaurant in Los Angeles, California, was sentenced to 11 years'
                     incarceration and three years' probation for holding a Bangladeshi
                     national against her will and forcing her to work for him for five years.
                     Alamin and his wife, Rabiya Akhter, who was sentenced on May 14, 2001,
                     to one year of incarceration and three years of supervised release, were
                     ordered to pay nearly $126,000 in restitution to their former maid-servant,
                     Shaefeli Akhtar. The investigation revealed that the Bangladeshi woman
                     had been brought to the United States illegally and then forced to work in
                     the restaurant and as a domestic worker at the residence for little or no
                     pay, through threats of physical violence to her and her family, as well as
                     frequent physical and sexual assaults. This was a joint investigation with
                     the INS and the FBI. U.S. v. Alamin, U.S. v. Akhter (C.D. California)




56                                                               Semiannual Report to the Congress
                                                                  April 1, 2001–September 30, 2001
        Strengthening
        Departmental
           Programs




     Legislative
Recommendations
        Legislative
     Recommendations


                     Section 4(a) of the Inspector General Act of 1978 requires the Inspectors
                     General to review existing or proposed legislation and regulations and
                     to make recommendations in the Semiannual Report concerning their
                     impact on the economy and efficiency of the Department's programs
                     and on the prevention of fraud and abuse. The following are legislative
                     recommendations that we have identified as contributing to the efficiency
                     and effectiveness of the OIG, the Department of Labor, and in some
                     cases other government agencies.


Efficiency of the OIG
     Permanent Statutory
     Law Enforcement Authority

                     The OIG supports legislation that provides permanent statutory law
                     enforcement authority to Inspectors General. For many years, the OIG
                     has operated with temporary law enforcement authority, first through
                     case-by-case deputation and currently with an organizational blanket
                     deputation through a memorandum of understanding (MOU) with the
                     Department of Justice (DOJ). Legislation could mirror the framework
                     under which our agents are currently deputized under the MOU and
                     could require the OIG to continue to follow DOJ operational guidelines,
                     conform to DOJ's training and qualification requirements, and
                     coordinate extensively through the cognizant U.S. Attorney's Office.


Efficiency of the U.S. Department of Labor
     Consolidate and Streamline
     the Various Dislocated Worker
     Programs

                     Two Federal programs—the Trade Adjustment Assistance (TAA)
                     program and the NAFTA Transitional Adjustment Assistance (NAFTA-
                     TAA) program—provide training and income support to help workers
                     who have been dislocated by foreign trade find employment in new
                     occupations and industries. A third program, the Dislocated Worker
                     (DW) program authorized under Title I-B of the Workforce Investment
                     Act (WIA), provides similar services to dislocated workers regardless of
                     the cause of the dislocation. Like the DW program, the two Trade
                     programs are required to participate in the One-Stop workforce
                     investment system established under WIA. The Employment and




58                                                             Semiannual Report to the Congress
                                                                April 1, 2001–September 30, 2001
                                                                          Legislative
                                                                       Recommendations

                            Training Administration encourages co-enrollment between the trade
                            and DW programs, and much of the training provided to TAA and
                            NAFTA-TAA participants is funded by WIA. Despite these
                            commonalities and overlaps, there are significant differences in how the
                            trade and DW programs are carried out and how their results are
                            reported.

                            To streamline and improve the services available to dislocated workers,
                            the OIG would support legislation that consolidates the three current
                            strategies into a single comprehensive program. The consolidated
                            program, which we believe should continue to operate within the WIA
                            One-Stop system, should serve all dislocated workers irrespective of the
                            cause of dislocation. In addition, the consolidated program should unify
                            the allowances, available services, eligibility requirements (including the
                            eligibility of workers secondarily affected by trade and other
                            dislocations), reporting systems, and performance goals found in the
                            existing programs.

    Cost Allocation by WIA
    Federal Partners

                            A significant feature of the Workforce Investment Act (WIA) is the
                            establishment of One-Stop delivery systems within each local workforce
                            investment area. WIA designates certain entities as required One-Stop
                            partners and allows for additional partners, at local discretion. WIA
                            requires that each local workforce investment board enter into
                            memoranda of understanding with its partners to define how the One-
                            Stop system will operate in the local area and how the costs of the
                            system and the services provided will be jointly funded. However, cost
                            sharing presents special problems in a One-Stop environment. Cost
                            sharing increases the administrative burden of accounting for costs and
                            benefits in a system where it is increasingly difficult to discern to which
                            program the participants belong and who should be paying the cost of
                            services. This is further complicated by a key principle of Federal grant
                            accounting: costs may be charged to a program only to the extent that
                            benefits are received by that program. WIA also limits local
                            administrative costs to 10%, half of what was allowed under JTPA.

                            Within the One-Stop system, the delivery of workforce investment
                            programs is carried out by designated Federal "partners," including the
                            Departments of Labor, Education, Health and Human Services,
                            Agriculture, and Housing and Urban Development. WIA regulations
                            require these partners, at the local level, to enter into memoranda of
                            understanding to define how the One-Stop center will operate, including
                            how the center's costs will be equitably distributed among all partners.
                            However, restrictions on how individual partners may use their program
                            funds affect their ability to bear their fair share of the costs.



Semiannual Report to the Congress                                                                   59
April 1, 2001–September 30, 2001
        Legislative
     Recommendations

                     These restrictions adversely affect efficient management of the system.
                     First, programs with more lenient administrative allowances and funding
                     levels may be forced to pick up the unfunded liability of partners that
                     cannot or will not bear their proportionate share of One-Stop operating
                     costs. Second, the true cost of a partner's participation in the One-Stop
                     system may be misrepresented. Similarly, local area expenditures for
                     WIA Title I-B adult and youth programs are limited to 10% of their
                     allocations. If the WIA programs are forced to pick up the slack for other
                     partners that are unable or unwilling to pay their share of the One-Stop
                     costs, the WIA programs could be faced with exceeding their own limited
                     administrative funding cap. Therefore, legislation is needed that makes
                     One-Stop costs uniformly allowable across all Federal partner
                     programs.

                     Alternatively, consideration should be given to amending WIA to permit
                     Title I-B funds to be used to cover the cost of any Federal partner
                     program that is statutorily prohibited from paying its full share of the One-
                     Stop costs. For example, the legislation establishing the Disabled
                     Veterans' Outreach Program (DVOP), a required WIA partner, states
                     that the use of DVOP funds may not be governed by any other law. This
                     is interpreted by some to mean that DVOP funds may not support the
                     One-Stop system to the extent that it serves non-DVOP eligibles. In
                     addition, we understand that a Department of Education Rehabilitation
                     Services Area reportedly refused to pay its proportionate share of the
                     local One-Stop center. (WIA Sections 121, 128, and 133; 20 CFR
                     662.270 and 667.210; OMB Circular Nos. A-21, A-87, and A-122; and 38
                     U.S.C. 4102 A[c][1])

     Amend the Occupational
     Safety and Health Act to
     Provide Specific Coverage
     for All State and Local
     Government Employees

                     Responsibility for the nation's occupational safety and health program is
                     divided between the Federal government, through the Occupational
                     Safety and Health Administration (OSHA), and those states that have
                     DOL-approved safety and health plans. The state-run programs are
                     administered and operated with Federal approval and generally cover
                     both private- and public-sector employees. However, in states where
                     safety and health enforcement is Federally run, state and local
                     government employees are excluded from coverage; these employees
                     are thereby denied adequate workplace safety and health protections.
                     Therefore, we recommend that OSHA seek to amend the OSH Act to
                     provide specific coverage for all public-sector workers, regardless of




60                                                               Semiannual Report to the Congress
                                                                  April 1, 2001–September 30, 2001
                                                                          Legislative
                                                                       Recommendations

                            whether safety and health rules are enforced by the Federal or state
                            government. This would help ensure that all workers are afforded a safe
                            and healthy workplace.

    Allow Access to Unemployment
    Insurance and Social Security
    Wage Records for Purposes of
    Program Evaluation

                            The Department of Labor needs the authority to gain unimpeded access
                            to wage records for various purposes. These include measuring the
                            long-term impact of employment and training services on job retention
                            and earnings, and identifying individuals who are receiving workers'
                            compensation disability benefits from the Department but who are, in
                            fact, working. These records would also be useful in identifying
                            claimants who fraudulently file for workers’ compensation benefits. Our
                            experience has been that outcome information is very difficult to obtain,
                            especially if agencies cannot access Unemployment Insurance (UI) and
                            Social Security Administration (SSA) wage records. The OIG has the
                            authority to issue subpoenas to obtain UI wage records but not to obtain
                            SSA wage records. However, this subpoena authority does not always
                            enable the OIG to obtain UI wage records in a timely and useful manner,
                            as states may invoke Federal UI confidentiality policies and/or state
                            nondisclosure statutes to hinder our access. We estimate that if an
                            automated SSA crossmatch were conducted annually (as opposed to
                            the current system of once every three years), OWCP's savings in SSA
                            charges, clerical costs, and postage would total $3.6 million in reduced
                            administrative expenses over 10 years. An annual crossmatch would
                            also enable OWCP to better identify, and remove from the disability rolls,
                            claimants who fraudulently conceal earnings. (Social Security Act
                            Sections 303[a][1] and 303[a][8])




Semiannual Report to the Congress                                                                  61
April 1, 2001–September 30, 2001
  Reports
    and
  Statistics




Appendix
             Appendix


Requirements Under the Inspector General Act of 1978
Section 4(a)(2) - Review of Legislation and Regulation ............................................................ 57
Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies ............................................ All
Section 5(a)(2) - Recommendations with Respect to Significant Problems,
 Abuses, and Deficiencies ...................................................................................................... All
Section 5(a)(3) - Prior Significant Recommendations on Which
 Corrective Action Has Not Been Completed .................................................................... 76-78
Section 5(a)(4) - Matters Referred to Prosecutive Authorities .................................................... 2
Section 5(a)(5) and Section 6(b)(2) - Summary of Instances Where
 Information Was Refused .................................................................................................. None
Section 5(a)(6) - List of Audit Reports ................................................................................. 79-82
Section 5(a)(7) - Summary of Significant Reports .................................................................... All
Section 5(a)(8) - Statistical Tables on Management Decisions
 on Questioned Costs ............................................................................................................ 67
Section 5(a)(9) - Statistical Tables on Management Decisions on
 Recommendations That Funds Be Put to Better Use ............................................................ 65
Section 5(a)(10) - Summary of Each Audit Report over Six Months Old for
 Which No Management Decision Has Been Made ........................................................... 76-78
Section 5(a)(11) - Description and Explanation for Any Significant
 Revised Management Decision ........................................................................................ None
Section 5(a)(12) - Information on Any Significant Management Decisions with
 Which the Inspector General Disagrees ........................................................................... None

Senate Report No. 96-829
Resolution of Audits ............................................................................................................ 79-82
Money Owed to the Department .............................................................................................. 69

House Report No. 106-370
Summary of Monetary Audit Finding Resolution ....................................................................... 70
Questioned Costs ............................................................................................................... 71-73
Funds Put to Better Use ..................................................................................................... 74-75




Note: This page cross-references the reporting requirements prescribed by the Inspector General Act of 1978, as
amended, Senate Report No. 96-829 (Supplemental 1980 Appropriations and Rescissions Bill), and House Report
No. 106-370 (FY 2000 Labor, HHS, Education, and Related Agencies Appropriation Bill) to the specific pages where
they are addressed. The amount of “delinquent debts” owed to the Department can be found in the annual Consolidated
Financial Statement Audit.




64                                                                                          Semiannual Report to the Congress
                                                                                             April 1, 2001–September 30, 2001
                              Funds Put to Better Use                       Appendix
                                  (Agreed to by DOL)


This schedule depicts the activity during the six-month reporting period for those funds that were
recommended by the auditor to be put to better use.

                                                                    Number           Dollar Value
                                                                   of Reports        ($ millions)


A. For which no management decision had
   been made as of the commencement of
   the reporting period                                                5                  8.1

B. Which were issued during the reporting
   period                                                              2                    .5

        Subtotals (A + B)                                              7                  8.6

C. For which a management decision was made
   during the reporting period                                         1

    •   Dollar value of recommendations
        that were agreed to by management                                                 5.0

    •   Dollar value of recommendations
        that were not agreed to by management                                             1.1

D. For which no management decision had been
   made as of the end of the reporting period                          6                  2.5

E. For which no management decision has been
   made within six months of issuance                                  4                  2.0




Semiannual Report to the Congress                                                                65
April 1, 2001–September 30, 2001
          Appendix                       Funds Put to Better Use
                                         (Implemented by DOL)


This schedule depicts the activity during the six-month reporting period for those funds that were
recommended by the auditor to be put to better use.

                                                                  Number             Funds
                                                                 of Reports      Recommended
                                                                                 for Better Use
                                                                                   ($ millions)

A. For which final action had not been
   taken as of the commencement of the
   reporting period*                                                   5                16.4

B. For which management decisions
   were made during the reporting period                               2                 7.7

         Subtotals (A + B)                                             7                24.1

C. For which final action was taken
   during the reporting period                                         1

     •      Dollar value of recommendations
            that were actually completed                                                 3.0

     •      Dollar value of recommendations
            that management has subsequently
            concluded should not or could
            not be implemented or completed                                              1.0

D. For which no final action had been taken
   by the end of the period*                                           6                20.1


* Does not include one audit with recommendations that funds be put to better use in the amount of
  $137,127, which is currently under appeal.




66                                                                 Semiannual Report to the Congress
                                                                    April 1, 2001–September 30, 2001
              Resolution Activity Related to OIG                        Appendix
        Issued Audit Reports (Questioned Costs)


This schedule shows the extent to which DOL management has taken steps, during the six-month
reporting period, to resolve the costs questioned as having been improperly expended. Audit
resolution occurs when management either agrees with the auditor’s finding and disallows those
costs that were questioned or decides that the expenditure should be allowed. (This schedule is
required by Section 5(a)(8) of the Inspector General Act, as amended.)


                                                                Number of        Questioned
                                                                 Reports            Costs
                                                                                 ($ millions)

A. For which no management decision had
   been made as of the commencement of the
   reporting period (as adjusted)                                 50                 50.9

B. Which were issued during the reporting
   period                                                         17                 39.5

          Subtotals (A + B)                                       67                 90.4

C. For which a management decision was
   made during the reporting period                               17

    •   Dollar value of disallowed costs                                              4.7

    •   Dollar value of costs not disallowed                                          4.7

D. For which no management decision had been
   made as of the end of the reporting period                     50                 81.0

E. For which no management decision has been
   made within six months of issuance                             33                 41.6




Semiannual Report to the Congress                                                           67
April 1, 2001–September 30, 2001
           Appendix                        Agency Final Actions Related to OIG-
                                           Issued Audit Reports (Disallowed Costs)


This schedule presents the activity for costs that have been disallowed during the six-month period.


                                                                    Number            Disallowed
                                                                   of Reports            Costs
                                                                                      ($ millions)


A. For which final action had not been taken as of
   the commencement of the reporting period (as adjusted)              58                 16.9

B. For which management or appeal decisions
   were made during the reporting period                               17                  6.1

         Subtotals (A + B)                                             75                 23.0

C. For which final action was taken during the
   reporting period*

     •   Dollar value of disallowed costs that were
         recovered                                                                         1.9

     •   Dollar value of disallowed costs that were
         written off by management                                                          .2

D. For which no final action had been taken by the end
   of the reporting period                                             59                 20.9**



*    Partial recovery/write-offs are reported in the period in which they occur. Therefore, many
     audit reports will remain open awaiting final recoveries/write-offs to be recorded.

** Does not include $26.5 million of disallowed costs that are under appeal.




68                                                                  Semiannual Report to the Congress
                                                                     April 1, 2001–September 30, 2001
                      Delinquent Debts Owed to DOL                                       Appendix
                           (as of September 30, 2001)




Agency/                                      Accounts                       Accounts                   Accounts
Program                                     Receivable                     Receivable                 Receivable
                                               Current                     Delinquent                        Total
                                            ($ millions)                   ($ millions)               ($ millions)



ESA:

    Black Lung                                       32.8                            2.9                      35.7

    FECA                                             22.7                           19.7                      42.4

    Longshore                                         1.3                            0.1                        1.4

    Back Wage                                         3.9                            7.5                      11.4

    Civil Monetary Penalties                          0.3                            6.4                        6.7

ETA                                                   1.1                            9.4                      10.5

MSHA                                                  1.6                           13.0                      14.6

OSHA                                                  9.2                           43.9                      53.1

PWBA                                                  1.1                            9.9                      11.0

Total                                                74.0                         112.8                      186.8



Note: These figures are provided by departmental agencies. They are unaudited and may represent estimates. Amounts
due to the Unemployment Trust Fund (interagency receivables, state unemployment taxes, and benefit overpayments) are
not included. Amounts due from other Federal agencies for FECA workers’ compensation benefits paid are not included.




Semiannual Report to the Congress                                                                                69
April 1, 2001–September 30, 2001
             Appendix
                                                     Summary Monetary Audit Finding Resolution (as of September 30, 2001)

       Fiscal          Num b er of                  Total                 Management           Recoveries       Adjustments           Balance
        Y ear         Reports with               Questioned/              Concurrence                                                   from
         of           Questioned/                Unsupported                                                                        M anagement
     Issuance         Unsupported               Costs or FPBU                                                                       Concurrence
                     Costs or FPBU11           Recommendations
                    Recommendations                  ($)                         ($)                ($)                ($)                 ($)
      1992                    135                       128,854,297           76,153,492        53,542,699          18,841,263           3,769,530
      1993                    107                         30,750,412          11,497,060          4,395,610          5,499,007           1,602,443
      1994                     84                         36,750,685          14,558,875          4,760,885          5,267,804           4,530,186
      1995                     74                         11,075,810            4,025,013         1,441,427          1,931,650              651,936
      1996                     80                         77,774,604          71,529,270        19,274,856          51,310,249              944,165
      1997                     81                         51,617,420          38,341,957        19,985,839           5,318,577          13,037,541
      1998                     25                         27,903,776          25,371,046        10,465,788             384,217          14,521,041
      1999                     38                         77,002,711         92,991,4142        84,367,677             177,274           8,446,463
      2000                     54                         62,869,790          22,975,529          3,402,780          1,265,555          18,307,194
      2001                     29                         43,990,001               84,570            79,196                    0                 5,374




       1
           Funds Put to Better Use
       2
           Includes concurrence with $69,731,931 of audit questioned/unsupported costs or FPBU recommendations, plus $23,234,396 of additional
           costs disallowed by DOL contracting officers as a result of audit resolution.




                                                                                                                              Semiannual Report to the Congress
70                                                                                                                             April 1, 2001–September 30, 2001
          Appendix
                                        Monetary Audit Finding Resolution: Questioned or Unsupported Costs

 Fiscal Year      Number of Reports   Questioned/    Year   Management     Recoveries    Adjustments        Balance
     of            with Questioned/   Unsupported           Concurrence                                      from
  Issuance        Unsupported Costs     Costs                                                             Concurrence
                                          ($)                   ($)           ($)            ($)               ($)
       1992              129            86,650,803   1992     17,593,752     1,052,295      2,051,481         14,489,976
                                                     1993      5,356,209     4,507,998        824,770         14,513,417
                                                     1994      3,563,743     1,425,039      2,739,341         13,912,780
                                                     1995      1,716,599       359,057      5,651,533          9,618,789
                                                     1996              0       121,685      1,379,310          8,117,794
                                                     1997              0     1,353,640      1,302,337          5,461,817
                                                     1998              0         5,000        852,803          4,604,014
                                                     1999              0         4,682              0          4,599,332
                                                     2000      5,660,319     2,376,233      4,029,450          3,853,968
                                                     2001              0        74,200         10,238          3,769,530
 YTD Totals              129            86,650,803            33,890,622    11,279,829     18,841,263          3,769,530
       1993              102            30,486,668   1993      7,157,258       141,040        965,848          6,050,370
                                                     1994      3,862,476       522,238         93,549          9,297,059
                                                     1995         53,229       292,241      1,450,938          7,607,109
                                                     1996         33,904     1,310,561         41,051          6,289,401
                                                     1997        280,493       492,803         99,593          5,977,498
                                                     1998              0     1,128,721      2,063,315          2,785,462
                                                     1999              0       384,891              0          2,400,571
                                                     2000              0         1,415        784,713          1,614,443
                                                     2001              0        12,000              0          1,602,443
     YTD Totals          102            30,486,668            11,387,360     4,285,910      5,499,007          1,602,443




                                                                                             Semiannual Report to the Congress
71                                                                                            April 1, 2001–September 30, 2001
        Appendix
                                      Monetary Audit Finding Resolution: Questioned or Unsupported Costs

 Fiscal Year   Number of Reports    Questioned/    Year   Management     Recoveries    Adjustments        Balance
     of         w ith Questioned/   Unsupported           Concurrence                                      From
  Issuance     Unsupported Costs      Costs                                                             Concurrence
                                        ($)                   ($)           ($)            ($)              ($)
     1994              83             34,850,685   1994      2,234,529       281,554         38,534          1,914,441
                                                   1995      8,182,628       635,826      1,153,093          8,308,150
                                                   1996        507,762       518,590      1,241,750          7,055,572
                                                   1997        467,029        57,052      1,038,501          6,427,048
                                                   1998      1,266,927     1,211,207        732,756          5,750,012
                                                   1999              0       107,472        201,789          5,440,751
                                                   2000              0        41,570        861,381          4,537,800
                                                   2001              0         7,614              0          4,530,186
 YTD Totals            83             34,850,685            12,658,875     2,860,885      5,267,804          4,530,186
     1995              74             11,075,810   1995      1,423,617        31,522          2,384          1,389,711
                                                   1996        663,335       216,896        331,436          1,504,714
                                                   1997      1,394,126       136,805          3,235          2,758,800
                                                   1998        433,559       626,905      1,381,297          1,184,157
                                                   1999         52,750        39,280         30,769          1,166,858
                                                   2000         57,626       390,019        104,733            729,732
                                                   2001              0             0         77,796            651,936
 YTD Totals            74             11,075,810             4,025,013     1,441,427      1,931,650             651,936
     1996              77             11,490,160   1996        966,308       350,404            602            615,302
                                                   1997      1,403,519       799,321          6,771          1,212,729
                                                   1998      1,030,269       175,833         84,578          1,982,587
                                                   1999        346,508       470,309        230,855          1,627,931
                                                   2000      1,318,789       994,040        576,821          1,375,859
                                                   2001        532,061       584,949        378,806            944,165
 YTD Totals            77             11,490,160             5,597,454     3,374,856      1,278,433             944,165


                                                                                           Semiannual Report to the Congress
72                                                                                          April 1, 2001–September 30, 2001
               Appendix
                                                              Monetary Audit Finding Resolution: Questioned or Unsupported Costs

     Fiscal Year         Number of Reports                Questioned/            Year      Management              Recoveries             Adjustments              Balance
         of               with Questioned/                Unsupported                      Concurrence                                                              from
      Issuance           Unsupported Costs                  Costs                                                                                                Concurrence
                                                              ($)                                  ($)                    ($)                    ($)                  ($)
          1997                        72                      28,028,226         1997          3,890,134                1,544,155                 814,113             1,531,866
                                                                                 1998          2,219,981                2,156,581                  90,098             1,505,168
                                                                                 1999          2,998,677                1,130,676                 968,701             2,404,468
                                                                                 2000          4,357,335                  649,467                  45,665             6,066,671
                                                                                 2001          1,789,568                1,960,171                       0             5,896,068
     YTD Totals                       72                      28,028,226                     15,255,695                 7,441,050              1,918,577              5,896,068
          1998                        21                      23,611,939         1998         6,114,199                 5,182,808                       0              931,391
                                                                                 1999        14,348,256                 1,120,018                  28,699           14,130,930
                                                                                 2000           270,090                 1,409,084                 233,897           12,758,039
                                                                                 2001           521,664                   321,129                 121,621           12,836,953
     YTD Totals                       21                      23,611,939                     20,732,545                 7,995,136                 262,596           12,836,953
          1999                        30                      65,154,720         1999         2,454,668                1,446,468                  131,992               876,208
                                                                                 2000        77,812,2341              71,398,179                   18,162             7,272,101
                                                                                 2001         1,232,569                   31,087                   27,120             8,446,463
     YTD Totals                       30                      65,154,720                     81,499,471               72,875,734                  177,274             8,446,463
          2000                        48                      45,442,557         2000           4,583,703                  13,625                       0             4,570,078
                                                                                 2001           2,713,819                 339,212                 106,496             6,838,189
     YTD Totals                       48                      45,442,557                        7,297,522                 352,837                 106,496             6,838,189
          2001                        24                      41,641,821         2001               84,570                  79,196                         0                5,374
     YTD Totals                       24                      41,641,821                           84,570                   79,196                         0                5,374
I
    Includes concurrence with $54,577,838 of audit questioned costs, plus $23,234,396 of additional costs disallowed by DOL contracting officers as a result of audit resolution.


                                                                                                                                                 Semiannual Report to the Congress
73                                                                                                                                                April 1, 2001–September 30, 2001
       Appendix
                                     Monetary Audit Finding Resolution: Funds Put to Better Use

 Fiscal Year   Number of Reports       Funds         Year   Management     Recoveries    Adjustments        Balance
     of           with FPBU        Recommended              Concurrence                                      from
  Issuance     Recommendations     for Better Use                                                         Concurrence
                                         ($)                    ($)           ($)            ($)              ($)
     1992              6                42,203,494   1992     42,262,870       452,391               0        41,810,479
                                                     1993              0    41,810,479               0                 0
 YTD Totals            6                42,203,494            42,262,870    42,262,870               0                    0
     1993              5                   263,744   1993        29,700        29,700                0                   0
                                                     1994        80,000             0                0              80,000
                                                     1995             0        80,000                0                   0
 YTD Totals            5                   263,744              109,700       109,700                0                    0
     1994              1                 1,900,000   1994      1,900,000             0               0          1,900,000
                                                     1995              0     1,900,000               0                  0
 YTD Totals            1                 1,900,000             1,900,000     1,900,000               0                    0
     1995              0                        0    1995             0             0                0                    0
 YTD Totals            0                        0                     0             0                0                    0
     1996              3                66,284,444   1996     15,900,000             0              0         15,900,000
                                                     1997              0     8,000,000              0          7,900,000
                                                     1998     50,031,816             0     50,000,000          7,931,816
                                                     1999              0     7,900,000              0             31,816
                                                     2000              0             0              0             31,816
                                                     2001              0             0         31,816                  0
 YTD Totals            3                66,284,444            65,931,816    15,900,000     50,031,816                     0


                                                                                              Semiannual Report to the Congress
74                                                                                             April 1, 2001–September 30, 2001
       Appendix
                                     Monetary Audit Finding Resolution: Funds Put to Better Use

 Fiscal Year   Number of Reports       Funds         Year   Management     Recoveries    Adjustments        Balance
     of           with FPBU        Recommended              Concurrence                                      from
  Issuance     Recommendations     for Better Use                                                         Concurrence
                                         ($)                    ($)           ($)            ($)              ($)
     1997              9                23,589,194   1997        769,831       769,831              0                  0
                                                     1998     18,779,304     3,206,513              0         15,572,791
                                                     1999      3,537,127     8,568,445      3,400,000          7,141,473
                                                     2000              0             0              0          7,141,473
                                                     2001              0             0              0          7,141,473
 YTD Totals            9                23,589,194            23,086,262    12,544,789      3,400,000           7,141,473
     1998              4                 4,291,837   1998        582,608       582,608               0                  0
                                                     1999      3,534,229     1,850,141               0          1,684,088
                                                     2000              0             0               0          1,684,088
                                                     2001              0             0               0          1,684,088
 YTD Totals            4                 4,291,837             4,116,837     2,432,749               0          1,684,088
     1999              8                11,847,991   1999      5,043,293     4,356,466               0            686,827
                                                     2000      4,748,650     4,748,650               0            686,827
                                                     2001      1,700,000     2,386,827               0                  0
 YTD Totals            8                11,847,991            11,491,943    11,491,943               0                    0
     2000              6                17,427,233   2000     10,654,878             0              0         10,654,878
                                                     2001      5,023,129     3,049,943      1,159,059         11,469,005
 YTD Totals            6                17,427,233            15,678,007     3,049,943      1,159,059         11,469,005
     2001              5                 2,348,180   2001             0             0                0                    0
 YTD Totals            5                 2,348,180                    0             0                0                    0



                                                                                              Semiannual Report to the Congress
75                                                                                             April 1, 2001–September 30, 2001
           Appendix
                                                        Unresolved Audits over Six Months Old

     This schedule presents a summary of all audit reports that continue to remain unresolved for more than six months. For these reports, a management decision
     is still outstanding. (This schedule is required by Section 5(a)(10) of the Inspector General Act, as amended.)
Agency/Program        Date Issued       Name of Audit                                            Report Number    Number of Recommendations          Questioned Costs
                                                                                                                                                                ($)
Nonmonetary Recommendations and Questioned Costs:
Being Resolved in Conjunction with DOL Consolidated Financial Statement Audit:
ESA/Admin           08/18/94          ESA Salaries & Expenses                                  03-94-008-04-001                   2                               0
OASAM/Admin         06/15/95          FY 1994 DOL Consolidated Financials                      12-95-004-07-001                   2                               0
CFO/Admin           08/19/96          FY 1995 DOL Management Comments                          12-96-016-13-001                   2                               0
CFO/Admin           05/01/96          FY 1995 DOL Consolidated Financials                      12-96-007-13-001                   1                               0
CFO/Admin           02/27/98          FY 1997 Consolidated Financials                          12-98-002-13-001                   2                               0
CFO/Admin           02/26/99          FY 1998 Consolidated Financials                          12-99-002-13-001                   1                               0
CFO/Admin           07/20/00          FY 1999 DOL Management Advisory Comments                 12-00-006-13-001                   3                               0
CFO/Admin           02/22/01          DOL Consolidated Financial Statements                    22-01-006-13-001                  11                               0
CFO/Admin           03/27/01          DOL Managerial Costs                                     22-01-012-13-001                   1                               0

Working with U.S. Department of Education to Resolve:
ETA/STW             05/09/97          School-to-Work Opportunities Program in Indiana          05-97-003-03-385                   8                          34,847

Pending Indirect Cost Negotiations:
OASAM/OPGM           11/04/94           Homebuilders Institute                                 18-95-001-07-735                   1                         628,158
OASAM/OPGM           11/04/94           Homebuilders Institute                                 18-95-002-07-735                   2                         748,379
OASAM/OPGM           11/04/94           Homebuilders Craft Skills                              18-95-003-07-735                   7                         353,479
ETA/OJC              02/19/99           Advantage Resource Group                               18-99-008-03-370                   1                          23,036

Final Management Decision Being Evaluated by the OIG
ETA/OJT            09/22/00          Follow-up Audit of Job Corps Safety and Health            05-00-007-03-370                   3                               0

Final Management Decision Not Yet Issued by Agency:
ETA/Admin          11/29/99           Xpand Corporation                                        18-00-001-03-001                   2                         106,757
ETA/UIS            09/26/97           Virgin Island UI                                         02-97-220-03-315                   8                         269,404
ETA/UIS            02/23/01           State of Maryland’s Unemployment Insurance
                                         ADP/IT Central Service Costs Charged to DOL Grants    03-01-002-03-315                   2                               0
ETA/UIS            02/26/01           New Mexico Department of Labor Year
                                         2000 Grant Expenditures                               04-01-001-03-315                   3                         914,221
ETA/UIS            03/19/01           Nevada Department of Employment and
                                         Training Year 2000 Grant Expenditures                 04-01-004-03-315                   3                         758,427
ETA/UIS            10/19/99           Single Audit: State of Indiana - 1997                    18-00-501-03-315                  10                         161,548
ETA/UIS            10/19/99           Single Audit: State of Indiana - 1998                    18-00-502-03-315                   7                         311,872
ETA/UIS            01/10/00           Single Audit: State of Minnesota - 1998                  18-00-517-03-315                   3                               0

                                                                                                                                      Semiannual Report to the Congress
76                                                                                                                                     April 1, 2001–September 30, 2001
           Appendix
                                               Unresolved Audits over Six Months Old

Agency/Program   Date Issued   Name of Audit                                          Report Number     Number of Recommendations    Questioned Costs
                                                                                                                                                 ($)
ETA/UIS          01/10/00      Single Audit: State of Nevada-1997                    18-00-520-03-315                2                             0
ETA/UIS          09/25/00      Allegation of Misuse of UI Funds                      03-00-010-03-315                1                      967,426
ETA/UIS          09/28/00      Survey of Office of Workforce                         03-00-011-03-315                1                             0
ETA/UIS          09/12/00      North Carolina Y2K Conversion Expenditures            04-00-003-03-315                1                       39,690
ETA/UIS          09/22/00      Single Audit: Michigan Consumer and Industry          12-00-524-03-315                4                             0
ETA/UIS          04/17/00      Single Audit: State of Louisiana-1999                 18-00-534-03-315                6                    2,429,691
ETA/SESA         08/13/97      DOL Equity in SESA Real Property-New York             06-97-051-03-325                1                    3,952,692
ETA/SESA         12/08/99      Puerto Rico Department of Labor and Human Resources   02-00-203-03-325                9                  15,814,678
ETA/SESA         09/18/00      Single Audit:Puerto Rico Dept of Labor
                                  and Human Resource                                 02-00-218-03-325                6                      287,065
ETA/SESA         08/23/00      Single Audit: State of Florida                        12-00-514-03-325                8                            0
ETA/SESA         11/02/00      Single Audit State of Alaska                          12-01-500-03-325                4                            0
ETA/OTAA         02/21/01      GPRA Performance Measures Audit of the Dislocated
                                  Worker, Trade Adjustment Assistance and NAFTA
                                  Transitional Adjustment Assistance Programs        23-01-001-03-330                4                            0
ETA/JTPA         09/25/98      Cherokee Nation                                       06-98-009-03-340                1                            0
ETA/JTPA         09/07/99      Atlanta PIC PY 1996 JTPA Contracts                    04-99-007-03-340                3                      543,117
ETA/JTPA         09/22/99      New Mexico Service Delivery Area                      06-99-008-03-340                2                            0
ETA/JTPA         01/10/00      Single Audit: State of Nevada-1998                    18-00-521-03-340                1                            0
ETA/JTPA         03/06/00      Single Audit: State of Iowa-1998                      18-00-529-03-340                4                            0
ETA/JTPA         09/20/00      Florida Cash Management Practices                     04-00-004-03-340                3                    3,438,078
ETA/JTPA         07/31/00      Single Audit: State of New Mexico-1998, 1999          12-00-500-03-340               12                            0
ETA/JTPA         09/26/00      Single Audit: National Center on Education            12-00-526-03-340                2                      267,251
ETA/JTPA         09/29/00      Single Audit: Commonwealth of Kentucky-1998           12-00-528-03-340                7                      613,950
ETA/JTPA         06/08/00      Single Audit: State of Florida-1998                   12-00-535-03-340                2                            0
ETA/JTPA         08/04/00      American Association of Community Colleges            18-00-008-03-340                2                      198,687
ETA/DINAP        08/28/00      Single Audit: United Sioux Tribes of South Dakota     12-00-519-03-355                1                            0
ETA/DINAP        09/15/00      Single Audit: Leech Lake Reservation                  12-00-520-03-355                2                            0
ETA/DINAP        06/08/00      Single Audit: Puyallup Tribe of Indians               12-00-525-03-355                4                            0
ETA/DOWP         06/08/00      Single Audit: State of Arizona-1998                   12-00-538-03-360                1                            0
ETA/DSFP         06/02/00      Central Valley Opportunity Center                     09-00-003-03-365               13                      535,579
ETA/DSFP         09/26/00      Audit of Center for Employment and Training           09-00-006-03-365               15                    5,797,229
ETA/OJC          09/22/99      Talking Leaves Job Corps Center                       06-99-010-03-370               12                    1,052,574
ETA/OJC          03/30/00      National Plastering Industry’s
                                  Joint Apprenticeship Trust Fund                    18-00-005-03-370                4                      536,359
ETA/OJC          03/23/01      Adams and Associates Inc.                             02-01-203-03-370                2                      167,863
ETA/OJC          03/22/02      Detroit Job Corps Center Expenses                     02-01-204-03-370                1                            0
ETA/OJC          03/22/01      Hubert H. Humphrey Job Corps Center                   02-01-205-03-370                1                            0
ETA/STW          09/23/99      Hawaii Department of Education                        18-99-501-03-385                1                       50,000

                                                                                                                      Semiannual Report to the Congress
77                                                                                                                     April 1, 2001–September 30, 2001
          Appendix
                                                       Unresolved Audits over Six Months Old

Agency/Program      Date Issued        Name of Audit                                    Report Number     Number of Recommendations    Questioned Costs
                                                                                                                                                   ($)
ETA/WTW             05/22/00           Postaward Survey of Deveraux                    03-00-006-03-386                2                        1,995
ETA/WTW             03/20/01           Stillman College Competitive Grant              04-01-002-03-386                3                      194,936
ETA/WTW             03/07/01           Greater Omaha Workforce Development             05-01-001-03-386                1                             0
ETA/WIA             02/08/00           Vermont’s One-Stop Readiness                    02-00-205-03-390                4                             0
ETA/WIA             02/22/00           Connecticut’s One-Stop Readiness                02-00-206-03-390                5                             0
ETA/WIA             02/22/00           New York’s One-Stop Readiness                   02-00-207-03-390                6                             0
ETA/WIA             03/14/00           Illinois’s One-Stop Readiness                   02-00-209-03-390                3                             0
ETA/WIA             03/14/00           California’s One-Stop Readiness                 02-00-210-03-390                6                             0
ETA/WIA             03/22/00           Florida’s One-Stop Readiness                    02-00-211-03-390                3                             0
CFO/Admin           09/02/99           FY 1998 Management Advisory Comments            12-99-009-13-001                8                           30
CFO/Admin           02/29/00           FY 1999 DOL Consolidated Financial Statement    12-00-003-13-001                1                             0
DOL/MULTI           09/16/99           Milwaukee Area American Indian Manpower         05-99-009-50-598               25                      352,693
DOL/MULTI           09/20/99           SER Corporation of Kansas                       05-99-021-50-598                3                        3,783

Total Nonmonetary Recommendations and Questioned Costs:                                                              298                   41,555,494

Total Funds Recommended for Better Use-Management Decision Not Yet Issued by Agency:
ETA/UIS           02/23/01           State of Maryland Unemployment                    03-01-002-03-315                2                    1,339,695
ETA/UIS           02/26/01           New Mexico                                        04-01-001-03-315                1                      171,994
ETA/JTPA          09/20/00           Florida Cash Management Practices                 04-00-004-03-340                1                      185,000

Pending Negotiations Between Auditee and DOL Contracting Officer
ETA/OJC             02/13/01          Memphis Cost Claim for Equitable Adjustment      04-01-003-03-370                1                      332,611

Total Funds Recommended for Better Use:                                                                                5                    2,029,300

Total Nonmonetary Recommendations,
Questioned Costs, and Funds Recommended for Better Use:                                                              303                   43,584,794




                                                                                                                        Semiannual Report to the Congress
78                                                                                                                       April 1, 2001–September 30, 2001
            Appendix
                                                             Final Audit Reports Issued by the OIG
Strategic Goal                                                      Date Issued      Report Number           Number of           Questioned        Funds Put to           Other
Program Name                                                                                                Non-Monetary              Costs          Better Use        Monetary
Name of Report                                                                                            Recommendations                                                Impact
                                                                                                                                          ($)                ($)             ($)
Employment and Training
Veterans Employment and Training
Strengthening VETS Software Management Controls Can
Prevent Unauthorized Software Use and Potential Software Piracy       09-28-01     23-01-014-02-001                6                       0                  0                0
Powercomm Foundation                                                  04-17-01     02-01-209-02-201                0                       0                  0                0
Single Audt-State of Louisiana                                        09-07-01     22-01-509-02-201                0                 333,546                  0                0

Job Training Partnership Act
Single Audit-State of Louisiana1                                      07-25-01     22-01-506-03-001                3              14,318,615                  0                0
Single Audit-Government of Guam                                       05-18-01     22-01-505-03-340                0                 229,816                  0                0
National Association of Counties Audit of Financial Status
   Report for July 1, 1997-April 30, 1998                             09-21-01     03-01-003-07-735                0                  10,098                  0                0

Job Corps
Management and Training Corporation                                   07-24-01     02-01-211-03-370                0                  94,932                  0                0
Loring Job Corps Center                                               09-28-01     02-01-212-03-370                3                 691,220                  0                0
Fiscal Year 2000 Drug Control Funds                                   04-20-01     21-01-002-03-370                0                       0                  0                0

Welfare-to-Work Program
Welfare-to-Work Competitive Grant Program
     Performance Audit                                                09-28-00     03-01-007-03-386                3                       0                  0                0
DePaul University Welfare-to-Work Competitive Grant                   07-27-01     05-01-003-03-386                10                154,127                  0          355,550
Indianapolis Private Industry Council Welfare-to-Work
     Competitive Grant                                                09-24-01     05-01-004-03-386                4                   6,705             44,732                0
Chicago Housing Authority Welfare-to-Work Competitive Grant           09-25-01     05-01-005-03-386                5                  86,278                  0           11,571
Single Audit-State of Louisiana1                                      07-25-01     22-01-506-03-001                0                  21,496                  0                0

Workforce Investment Act
Role Models America, Inc.                                             09-27-01     21-01-200-03-390                4               2,309,455                  0                0

Labor Statistics
Government Information Security Reform Act
Evaluation of the Bureau of Labor Statistics                          09-24-01     23-01-005-11-001                3                       0                  0                0
Single Audit-State of Louisiana                                       09-07-01     22-01-507-11-111                0                 169,335                  0                0


1
     This state-wide single audit resulted in questioned costs of $14,318,615 of JTPA funds, $7,096,529 of UI funds, $1,718,616 of State Workforce Agency funds,
     $28,752 of Trade Adjustment Assistance funds, $21,496 of Welfare-to-Work funds, and $17,656 of Foreign Labor Certification funds.

                                                                                                                                                Semiannual Report to the Congress
79                                                                                                                                               April 1, 2001–September 30, 2001
            Appendix
                                                            Final Audit Reports Issued by the OIG

Strategic Goal                                                   Date Issued    Report Number        Number of      Questioned      Funds Put to           Other
Program Name                                                                                        Non-Monetary         Costs        Better Use        Monetary
Name of Report                                                                                    Recommendations                                         Impact
                                                                                                                           ($)                ($)             ($)
Trade Adjustment Assistance
Improving the Trade Act Program                                   09-26-01     04-01-009-03-330          4                   0                 0                0
Single Audit-State of Louisiana1                                  07-25-01     22-01-506-03-001          0              28,752                 0                0

Goal Totals                                                                         17                  45          18,454,375            44,732          367,121

Worker Benefits Programs
Unemployment Insurance Service
Maryland Department of Labor, Licensing and
     Regulations Audit of Indirect Costs                          09-21-01     03-01-006-03-315          8           9,833,059                 0                0
Pennsylvania Department of Labor and
     Industry’s Year 2000 Grant Expenditures                      08-22-01     04-01-005-03-315          0             246,262           459,198                0
Ohio Department of Job and Family Services’
     Year 2000 Grant Expenditures                                 09-21-01     04-01-006-03-315          0           1,085,283                 0                0
California Employment Development Department’s
     Year 2000 Grant Expenditures                                 09-21-01     04-01-008-03-315          0             848,643                 0                0
Montana Department of Labor and Industry’s
     Year 2000 Grant Expenditures                                 09-17-01     04-01-010-03-315          0             132,743                 0                0
Single Audit-State of Louisiana1                                  07-25-01     22-01-506-03-001          4           7,096,529                 0                0
Security Testing and Evaluation Audit of the
Office of Workforce Security System                               09-26-01     23-01-004-03-315         31                  0                  0                0

Foreign Labor Certification
Single Audit-State of Louisiana1                                  07-25-01     22-01-506-03-001          0              17,656                 0                0

State Workforce Agency
Real Property Issues Related to Federal Equity Properties         09-28-01     06-01-003-03-325          4                   0                 0                0
Single Audit-State of Louisiana1                                  07-25-01     22-01-506-03-001          0           1,718,616                 0                0

Goal Totals
                                                                                   7                    47          20,978,791           459,198                0
Worker Safety, Health, and Workplace Rights
Mine Safety and Health
Government Information Security Reform Act Evaluation
and Security Testing and Evaluation                               09-28-01     23-01-011-06-001         17                  0                  0                0




                                                                                                                                 Semiannual Report to the Congress
80                                                                                                                                April 1, 2001–September 30, 2001
           Appendix
                                                         Final Audit Reports Issued by the OIG
Strategic Goal                                                     Date Issued    Report Number        Number of      Questioned      Funds Put to           Other
Program Name                                                                                          Non-Monetary         Costs        Better Use        Monetary
Name of Report                                                                                      Recommendations                                         Impact
                                                                                                                             ($)                ($)             ($)
Occupational Safety and Health
Connecticut Council for Occupational Safety and Health              09-28-01     21-01-004-10-001          0                   0                 0                0
Single Audit-State of Louisiana                                     09-07-01     22-01-508-10-001          0              87,413                 0                0
Government Information Security Reform Act Evaluation
    and Security Testing and Evaluation                             09-24-01     23-01-006-10-001         23                  0                  0                0

Wage and Hour
Government Information Security Reform Act Evaluation
   and Security Testing and Evaluation                              09-25-01     23-01-007-04-001          8                  0                  0                0

Office of Federal Contractor Compliance Programs
Government Information Security Reform Act Evaluation
    and Security Testing and Evaluation                             09-25-01     23-01-008-04-001          8                  0                  0                0

Goal Totals                                                                            6                  56              87,413                 0                0

Departmental Management
Information Technology Center
Technical Security of the U.S. Department of Labor
    Employee Computer Network                                       07-12-01     03-01-005-07-001         19                  0                  0                0
Complaints About Hiring and Other Personnel Issues                  08-16-01     21-01-301-07-720         5                   0                  0                0
Computer Security Practices in the Information Technology Center    09-28-01     21-01-302-07-720         3                   0                  0                0
    Government Information Security Reform Act
Evaluation of PeoplePower System                                    09-28-01     23-01-013-07-001         10                  0                  0                0
The Office of the Chief Information Officer Needs to
    Update Its Critical Infrastructure Protection Plan              09-28-01     23-01-003-07-720          4                  0                  0                0

Business Operations Center
Department of Labor Is Refocusing Efforts to Improve Physical
   Security of Its Minimum Essential Infrastructure                 07-20-01     23-01-002-07-711         13                  0                  0                0

CFO Management
Unemployment Claims for Federal Employees at the
   U.S. Department of Labor                                         08-01-01     21-01-003-13-001          0                  0                  0                0
Department of Labor Consolidated Financial Statement,
   FY 2000 Management Advisory Comments                             08-27-01     22-01-009-13-001          6                  0                  0                0

Goal Totals                                                                            8                  60                  0                  0                0

                                                                                                                                   Semiannual Report to the Congress
81                                                                                                                                  April 1, 2001–September 30, 2001
           Appendix
                                                       Final Evaluation Reports Issued by the OIG
Strategic Goal                                               Date Issued    Report Number      Number of      Questioned      Funds Put to           Other
Program Name                                                                                  Non-Monetary         Costs        Better Use        Monetary
Name of Report                                                                              Recommendations                                         Impact
                                                                                                                     ($)                ($)             ($)
Employment and Training
Evaluation of America’s Career Kit                            9-27-2001    2E-03-390-0002          9                  0                  0                0

Worker Safety, Health, and Workplace Rights
Study of Metal/Nonmetal Mining Enforcement and
    Compliance Assistance Activities, 1983-2000               9-26-2001    2E-06-620-0003          5                  0                  0                0
Evaluation of OSHA’s Handling of Workplace Violence Issues    9-26-2001    2E-10-105-0002          6                  0                  0                0



Audit and Evaluation Report Totals                                             41                 228         39,520,579           503,930          367,121




                                                                                                                           Semiannual Report to the Congress
82                                                                                                                          April 1, 2001–September 30, 2001
                                                            Appendix
      Investigations: Detail of Accomplishments

                                                     Division          Totals
                                                       Totals
Cases Opened:
      Program Fraud                                      197
      Labor Racketeering                                  46             243

Cases Closed:
      Program Fraud                                      170
      Labor Racketeering                                  52             222

Cases Referred for Prosecution:
      Program Fraud                                      131
      Labor Racketeering                                  54             185

Cases Referred for Administrative/Civil Action:
      Program Fraud                                       12
      Labor Racketeering                                   0              12

Indictments:
       Program Fraud                                     118
       Labor Racketeering                                 64             182

Convictions:
      Program Fraud                                       71
      Labor Racketeering                                  38             109

Debarments:
     Program Fraud                                         2
     Labor Racketeering                                   26              28

Recoveries, Cost Efficiencies,
Restitutions, Fines/Penalties,
Forfeitures, and Civil Monetary Actions:
       Program Fraud                              $20,359,380
       Labor Racketeering                         $14,851,732     $35,211,112




Semiannual Report to the Congress                                         83
April 1, 2001–September 30, 2001
           Appendix
                                            Investigations: Detail of Accomplishments




Recoveries:                                                                         $3,207,318

     (The dollar amount/value of an agency’s action
     to recover or reprogram funds or to make other
     adjustments in response to OIG investigations)

Cost Efficiencies:                                                                  $9,566,906

     (The one-time or per annum dollar amount/value of
     management’s commitment, in response to OIG
     investigations, to utilize the government’s resources
     more efficiently)

Restitutions:                                                                      $20,356,186

     (The dollar amount/value of restitutions resulting
      from OIG criminal investigations)

Fines/Penalties:                                                                    $1,336,812

     (The dollar amount/value of fines, assessments,
     seizures, investigative/court costs, and other penalties
     resulting from OIG criminal investigations)

Civil Monetary Actions:                                                               $743,890

     (The dollar amount/value of forfeitures settlements,
     damages, judgements, court costs, or other penalties
     resulting from OIG civil investigations)

Total:                                                                             $35,211,112




84                                                              Semiannual Report to the Congress
                                                                 April 1, 2001–September 30, 2001
                                                                                             Appendix
                                   Investigations Case List



                                                                       Convicted             Sentenced         Monetary1
FOREIGN LABOR CERTIFICATION
FILANDRIANOS, THEODORE                                                                            X               $5,000
GALVEZ-LANTION, MAE                                                                               X               $9,000
MUTIA, ALICIA                                                              X
NAUDE, HEYN                                                                X
RAZAQ, MOHAMMAD                                                            X                      X               $5,800
REDDY, LAKIREDDY                                                                                  X          $2,000,000
REYES, DANIEL                                                                                     X               $2,100
SCULLY, MATAHOM                                                                                   X            $271,404
    Total                                                                  3                      6          $2,287,504


BLS/OTHER
SIMS, CHARLES                                                              X                      X               $4,095
    Total                                                                  1                      1               $4,095


EMPLOYEE MISCONDUCT
SMITH, GAIL (GALE)                                                         X                      X              $35,987
    Total                                                                  1                      1              $35,987


ESA-BLACK LUNG
CABELL, DONALD                                                                                    X            $344,129
CARROLL, VIOLA                                                             X                      X              $16,900
MORRISON, C. DAVID                                                                                X            $392,300
SUTHERLAND, FRANKLIN, M.D.                                                 X
    Total                                                                  2                      3            $753,329


ESA-FECA
ALEXANDER, CLAUDE                                                          X                      X              $73,430
BORQUEZ, PAUL                                                                                     X               $5,600
BRYANT, RAYMOND                                                            X
CAMPA, JOHN, M.D.                                                          X
CHEEKS, LONNIE                                                             X                      X            $109,443
COOK, WILLIAM                                                                                     X              $51,452
DUE, DON                                                                   X
FAIR, ADDISON                                                              X
FELDER, WILLIE                                                             X
FENSTER, ROBERT, M.D.                                                                             X              $15,732
GARRIS, FAYE                                                               X                      X               $6,734
GONZALES, GILBERT                                                          X                      X              $13,610
*PRE-TRIAL DIVERSION*                                                      X                      X                 $305


1
    Monetary results in this chart do not include civil or administrative monies resulting from OIG criminal investigations.




Semiannual Report to the Congress                                                                                      85
April 1, 2001–September 30, 2001
         Appendix
                      Investigations Case List



                                 Convicted          Sentenced       Monetary1
HAAMMOND, JOHN, JR.                 X                   X            $28,025
KINSEY, BEVERLY                     X                   X            $55,263
LOWE, GREGORY                       X
MOGELNICKI, JOHN                    X
NICKELSON, MALCOLMO                 X                   X             $9,492
PHILLIPS, GUY                       X
POPPELL, DENNIS                     X                   X            $25,200
POYTHRESS, DORMAN                                       X           $338,344
RANKIN, JOHN                        X                   X            $95,288
RANKIN, LAURA                       X                   X           $113,180
ROBERTS, EDDIE                                          X            $60,040
SMITH, MICHAEL                      X                   X           $191,900
SPENCE, CALVIN                                          X            $89,824
STOKES, SHERRIL                     X                   X            $15,939
STREATH, MICHAEL                                        X           $102,349
SWOAP, FLOYD                        X
TORNABE, LENNY                      X                   X            $10,140
WDOWIAK, ANDRZEJ                    X
 Total                              24                  21        $1,054,384


ESA-LONGSHORE
ARTIS, JOHN                         X                   X           $118,753
CENTENO, CYNTHIA                    X
GRADY, ELIZABETH                    X                   X            $27,948
HEARD, IRA                          X                   X             $3,312
SHANLEY, JAMES                                          X           $109,488
 Total                               4                  4           $259,501


ESA-WAGE AND HOUR
BROADBENT, CARL                     X
DELGADO, EDUARDO                                        X           $224,133
FRANCISCO, ARNOLD                   X                   X         $1,999,425
HACKNEY GROUP, INC.                                     X             $5,600
HACKNEY, BRUCE                                          X             $1,300
 Total                               2                  4        $22,304,458


ETA-JOB CORPS
WILSON, KENNETH                     X                   X             $1,300
 Total                               1                  1             $1,300




86                                           Semiannual Report to the Congress
                                              April 1, 2001–September 30, 2001
                                                                    Appendix
                             Investigations Case List



                                                        Convicted   Sentenced   Monetary1
ETA-JTPA
BROOKS, CHRISTY                                            X           X          $2,398
PETTIS, SANDRA                                             X           X         $20,100
ZIMET, TERRY                                                           X          $7,394
 Total                                                     2           3         $29,892


ETA-UNEMPLOYMENT INSURANCE/SWA
AKHTAR, RABIYA                                                         X        $125,819
ALAMIN, NUR                                                            X        $128,319
*PRE-TRIAL DIVERSION*                                      X           X          $2,200
*PRE-TRIAL DIVERSION*                                      X           X          $2,249
AUSTIN, RANDY                                              X           X          $2,301
*PRE-TRIAL DIVERSION*                                      X           X          $3,693
BIGLEY, ROLAND                                             X           X          $2,197
BLACK, JOHN ALLEN                                          X
BRYANT, ESTELLE, JR.                                       X
CHEUNG, YEE BUN                                            X
DELGADO, YVETTE                                            X           X         $14,534
DIGGS, NAPELEON                                            X           X         $56,164
FERNANDEZ, APOLINAR                                        X
FREEMAN, THERESA                                           X
JOHNSON, RORY                                              X
JONES, DARREN                                              X           X          $4,447
KING, MISTY                                                X           X            $664
MANZO, JOSEPH                                                          X         $40,100
*SEALED*                                                   X           X          $3,515
*PRE-TRIAL DIVERSION*                                      X           X          $3,113
*PRE-TRIAL DIVERSION*                                      X           X          $2,210
*PRE-TRIAL DIVERSION*                                      X           X
NOTO, JERRY                                                X
ORIENTAL BUFFET, INC.                                      X
PETROSKI, GREGORY                                          X           X            $146
POKORSKI, DAVID                                            X           X          $2,000
ROBERSON, MELVIN                                           X           X            $476
ROBY, JANIE                                                X
SLATTEN, GARY                                              X           X          $1,318
SOTO LARA, ALBERTO                                         X
ST. JACQUES, JAMES                                                     X          $1,100
STEVENS, ROBERT                                            X           X            $600
THOMAS, ANDREW                                                         X         $10,350
VANHORN, RANDY                                                         X         $54,850




Semiannual Report to the Congress                                                      87
April 1, 2001–September 30, 2001
           Appendix
                                 Investigations Case List



                                                                                         1
                                            Convicted          Sentenced      Monetary
VO, KIMBERLY                                    X
WALKER, KEVIN                                   X
WATSON, EDWARD                                  X
WATSON, JEREMIAH                                X                  X               $600
YEUNG, TO                                       X
 Total                                         33                  25          $491,445


ETA-WELFARE TO WORK
BUCK, RUBY                                      X
 Total                                          1


OSHA
OSTREICHER, EUGENE                              X                  X         $1,000,000
 Total                                          1                  1         $1,000,000


OTHER - LABOR RACKETEERING
SPOLETA CONSTRUCTION CO., INC.                                     X           $541,200
 Total                                                             1           $541,200


BENEFIT PLAN
BELANGER, KENNETH, JR.                                             X            $49,861
BENNETT, STANLEY                                X                  X             $6,478
BIGHAM, EDWARD, SR.                                                X            $48,981
BUHITE, THOMAS JESSE                            X                  X           $198,000
BUONOPANE, PAUL                                                    X           $585,188
BUONOPANE, ROBERT                                                  X           $585,188
DAHER, MICHAEL, SR.                             X
ESPOSITO, ANNA                                                     X            $59,330
FANELLI, ANDREW                                 X                  X           $364,432
FANELLI, ANGELA                                 X                  X           $364,432
FRY, MAHOGANY                                   X                  X               $853
GAINES, STEPHEN                                 X
GARCIA, JAMES                                   X
*SEALED*                                        X
GHEEN, HARLEY                                                      X             $1,100
KATZ, NEAL                                      X
LASCOLA, TODD                                                      X         $8,122,984
*PRE-TRIAL DIVERSION*                           X                  X            $20,000
MILLER, ROBERT, M.D.                            X
MITCHELL, RALPH                                 X
MORRIS, DYAHIANN                                X                  X            $10,000




88                                                      Semiannual Report to the Congress
                                                         April 1, 2001–September 30, 2001
                                                                    Appendix
                             Investigations Case List



                                                                                            1
                                                        Convicted   Sentenced    Monetary
NAIMOLI, ANTHONY                                                       X           $59,280
OBINWANNE, UCHE                                            X           X               $25
OGBURNAMIRI, ALBERT                                        X           X          $159,843
ONEAL, JULIUS III                                          X
STRETTON, WELLINGTON                                                   X            $2,500
YOVANNO, SAM                                               X
 Total                                                     18          18       $11,084,475


INTERNAL UNION
ANTONUCCI, SHARON                                          X           X          $440,000
BERRY, DENNIS                                                          X            $1,396
CARTER, EARNEST                                            X
CHIOCCHI, DENNIS                                                       X           $40,094
COLEMAN, WILLIAM                                                       X            $5,000
COURCHESNE, DANIEL                                                     X           $55,150
*PRE-TRIAL DIVERSION*                                      X           X
FIORINI, PETER, JR.                                                    X            $2,000
*SEALED*                                                   X
*PRE-TRIAL DIVERSION*                                      X           X
*SEALED*                                                   X           X
*SEALED*                                                   X
HARRIS, ROY                                                X           X           $28,223
KIGHT, ROBERT                                              X           X            $6,000
*SEALED*                                                   X
MILLER, TAMARA                                             X
MURRAY, KENNETH                                            X           X           $51,126
*PRE-TRIAL DIVERSION*                                      X           X
PANNUTTI, EDWARD                                           X
SABATINE, JAMES                                            X
SANCHEZ, TERESA                                                        X          $211,196
*PRE-TRIAL DIVERSION*                                      X           X
*SEALED*                                                   X           X            $5,000
ZEUBERIS, FRANK                                            X
 Total                                                     18          16         $845,185


LABOR-MANAGEMENT
BUSILLO, MARIA                                             X
CATALDO, GILBERT                                           X
SERPICO, JOHN                                              X
 Total                                                     3




Semiannual Report to the Congress                                                        89
April 1, 2001–September 30, 2001
          Appendix                         Office of Communications, Inspections,
                                           and Evaluations: Hotline Activity




The OIG Hotline provides a communication link between the OIG and persons who want to report
alleged violations of law, rules, or regulations; mismanagement; waste of funds; abuse of authority;
or danger to public health and safety. During this reporting period, the OIG Hotline received a total
of 2,071 contacts. Of these contacts, 330 allegations required additional review. Listed below is a
breakdown of those 330 allegations.

Total Contacts for This Period:                                                                2,071

Allegation Reports by Source:

     Hotline Operations – Calls, Letters, and Walk-ins
          from Individuals or Organizations                                                      285

     Letters from Congress                                                                          8

     Letters from DOL Agencies                                                                      9

     Incident Reports from DOL Agencies                                                             2

     Reports by OIG Components                                                                      4

     Letters from Non-DOL Government Agencies                                                      14

     Government Accounting Office (GAO)                                                             8

       Total                                                                                     330

Allegation Reports by Referral:

     Referred to OIG Components                                                                    50

     Referred to DOL Program Management                                                          204

     Referred to Other Agencies                                                                    36

     No Further Action Required                                                                    40

        Total                                                                                    330




90                                                                   Semiannual Report to the Congress
                                                                      April 1, 2001–September 30, 2001
